<html>
<title> - UNDERSTANDING THE IMPORTANCE OF DHS PREPAREDNESS GRANTS: PERSPECTIVES FROM THE FIELD</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



 UNDERSTANDING THE IMPORTANCE OF DHS PREPAREDNESS GRANTS: PERSPECTIVES 
                             FROM THE FIELD

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                        EMERGENCY PREPAREDNESS,
                         RESPONSE, AND RECOVERY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 9, 2020

                               __________

                           Serial No. 116-54

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                     

        Available via the World Wide Web: http://www.govinfo.gov

                               __________

                      U.S. GOVERNMENT PUBLISHING OFFICE
                      
40-923 PDF                 WASHINGTON : 2020 














                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
James R. Langevin, Rhode Island      Peter T. King, New York
Cedric L. Richmond, Louisiana        Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     John Katko, New York
Kathleen M. Rice, New York           Mark Walker, North Carolina
J. Luis Correa, California           Clay Higgins, Louisiana
Xochitl Torres Small, New Mexico     Debbie Lesko, Arizona
Max Rose, New York                   Mark Green, Tennessee
Lauren Underwood, Illinois           Van Taylor, Texas
Elissa Slotkin, Michigan             John Joyce, Pennsylvania
Emanuel Cleaver, Missouri            Dan Crenshaw, Texas
Al Green, Texas                      Michael Guest, Mississippi
Yvette D. Clarke, New York           Dan Bishop, North Carolina
Dina Titus, Nevada
Bonnie Watson Coleman, New Jersey
Nanette Diaz Barragan, California
Val Butler Demings, Florida
                       Hope Goins, Staff Director
                 Chris Vieson, Minority Staff Director
                                 ------                                

     SUBCOMMITTEE ON EMERGENCY PREPAREDNESS, RESPONSE, AND RECOVERY

               Donald M. Payne Jr., New Jersey, Chairman
Cedric Richmond, Louisiana           Peter T. King, New York, Ranking 
Max Rose, New York                       Member
Lauren Underwood, Illinois           Dan Crenshaw, Texas
Al Green, Texas                      Michael Guest, Mississippi
Yvette D. Clarke, New York           Dan Bishop, North Carolina
Bennie G. Thompson, Mississippi (ex  Mike Rogers, Alabama (ex officio)
    officio)
              Lauren McClain, Subcommittee Staff Director
          Diana Bergwin, Minority Subcommittee Staff Director 
          
          
          
          
          
          
          
          
          
          
          
          
          
          
          
          
          
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Donald M. Payne Jr., a Representative in Congress 
  From the State of New Jersey, and Chairman, Subcommittee on 
  Emergency Preparedness, Response, and Recovery:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Ranking Member, Subcommittee on 
  Emergency Preparedness, Response, and Recovery:
  Oral Statement.................................................     3
  Prepared Statement.............................................     5
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Prepared Statement.............................................     6

                               Witnesses

Mr. Michael A. Sprayberry, Director, North Carolina Emergency 
  Management, North Carolina Office of Recovery and Resiliency:
  Oral Statement.................................................     7
  Prepared Statement.............................................     8
Mr. W. Greg Kierce, Director, Jersey City Office of Emergency 
  Management and Homeland Security:
  Oral Statement.................................................    12
  Prepared Statement.............................................    14
Mr. Michael G. Masters, National Director and CEO, Secure 
  Community Network:
  Oral Statement.................................................    16
  Prepared Statement.............................................    18
Mr. John J. Miller, Deputy Commissioner, Intelligence and 
  Counterterrorism, New York City Police Department:
  Oral Statement.................................................    21
  Prepared Statement.............................................    23

                             For the Record

The Honorable Donald M. Payne Jr., a Representative in Congress 
  From the State of New Jersey, and Chairman, Subcommittee on 
  Emergency Preparedness, Response, and Recovery:
  Statement of The Jewish Federations of North America...........    42

                                Appendix

Questions From Chairman Donald M. Payne, Jr. for Michael A. 
  Sprayberry.....................................................    47
Questions From Honorable Michael Guest for Michael A. Sprayberry.    48
Questions From Chairman Donald M. Payne for W. Greg Kierce.......    48
Questions From Honorable Michael Guest for W. Greg Kierce........    49
Questions From Honorable Michael Guest for John J. Miller........    49

 
 UNDERSTANDING THE IMPORTANCE OF DHS PREPAREDNESS GRANTS: PERSPECTIVES 
                             FROM THE FIELD

                              ----------                              


                       Thursday, January 9, 2020

             U.S. House of Representatives,
                    Committee on Homeland Security,
                   Subcommittee on Emergency Preparedness, 
                                    Response, and Recovery,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:02 a.m., in 
room 310, Cannon House Office Building, Hon. Donald M. Payne, 
Jr. [Chairman of the subcommittee] presiding.
    Present: Representatives Payne, Rose, Underwood, Green, 
Clarke, King, Crenshaw, Guest, and Bishop.
    Mr. Payne. The Subcommittee on Emergency Preparedness, 
Response, and Recovery will come to order.
    The subcommittee is meeting today to receive testimony on, 
``Understanding the Importance of DHS Preparedness Grants: 
Perspectives From the Field.''
    Before we get started, I would like to take a moment to 
acknowledge the on-going devastation in Puerto Rico from the 
recent earthquakes. The island is still recovering from 
Hurricane Rita, and to have another large-scale disaster is 
heart breaking. Our sympathies and prayers are with you.
    Without objection, the Chair may declare the subcommittee 
in recess at any point.
    Without objection, Members not sitting on the committee--
subcommittee, will be permitted to participate in today's 
hearing. I will now recognize myself for an opening statement.
    We are here today to hear from stakeholders about their 
perspectives on the Department of Homeland Security's 
preparedness grant programs. December--the September 11, 2001, 
terrorist attacks revealed gaps in the Nation's emergency 
preparedness. DHS preparedness grants were established to 
address gaps by helping State, local, Tribal, and territorial 
governments enhance their ability to prepare for, respond to, 
recover from, and mitigate against terrorist attacks.
    As the representative for New Jersey's 10th Congressional 
District, I understand the importance of these grant programs. 
My district contains Newark Liberty International Airport, the 
New Jersey Transit Authority, and the Port Authority of Newark 
and Elizabeth Marine Terminal, this in addition to having a 
dense area of industrial facilities and being in close 
proximity to New York City.
    The Newark-Jersey City area has consistently been 
considered one of the highest-risk urban areas in the Nation, 
and has been referred to as the most dangerous 2 miles in 
America.
    Throughout my time in Congress, New Jersey's emergency 
preparedness has depended on financial assistance from DHS 
preparedness grants program. The Urban Area Security 
Initiative, commonly known as UASI, has particularly been 
helpful with supporting my district's ability to build and 
maintain important capabilities necessary to keep us safe. At 
the same time, the funding has helped ensure that first 
responders have the resources they need to do their jobs 
effectively and safely.
    America's security depends on this important Federal 
investment. So I am disappointed in the President's regular 
efforts to slash preparedness grant funding. For example, 
President Trump's proposed over $900 million in cuts to DHS 
preparedness grant funding for fiscal years 2018 and 2019. The 
President's fiscal year 2020 budget would have cut existing 
preparedness grant funding by nearly $700 million.
    The threat landscape is ever-evolving, and a lack of 
preparedness funding from the Federal Government would make it 
that much more difficult for States to meet their homeland 
security needs.
    Today America is at an elevated risk of terrorist attacks 
following the killing of Iranian General Qassem Soleimani by 
U.S. forces in Iraq and because Iraq has promised to revenge 
jurisdictions like mine are on heightened alert and have to be 
more vigilant.
    We are also reminded of Homeland Security's needs by events 
like the Jersey City shooting at the Jewish grocery store last 
month that claimed the lives of 4 victims including a police 
officer. The loss of one life is too many, and I can only 
imagine how this tragedy would have unfolded if Jersey City was 
not armed with the capabilities they were able to build with 
DHS preparedness grant funding.
    This instance, mounted on top of nearly a dozen anti-
Semitic acts that occurred in the past month in New York, more 
than evidence the problems we have with domestic terrorism in 
this country and underscores the threat against religious 
communities.
    In light of this, I am proud to have supported Chairman 
Thompson's efforts to secure funding to protect nonprofit 
organizations at risk of terrorist attacks through his 
legislation, the Securing American Nonprofit Organizations 
Against Terrorism Act of 2019 which passed the House and the 
Senate in Congress.
    DHS preparedness grants have proved to be an invaluable 
investment in America's security. I am pleased that this 
committee has consistently supported and encouraged robust 
funding for these grant programs.
    I look forward to hearing from the witnesses--look forward 
to hearing from the witnesses on how they use DHS grant funding 
to secure their communities, whether any improvements can be 
made to these grants programs in order to enhance Homeland 
Security.
    With that, I now recognize the Ranking Member of the 
subcommittee, the gentleman from New York, Mr. King, for an 
opening statement.
    [The statement of Chairman Payne follows:]
               Statement of Chairman Donald M. Payne, Jr.
                            January 9, 2020
    The September 11, 2001, terrorist attacks revealed gaps in the 
Nation's emergency preparedness. DHS preparedness grants were 
established to address gaps by helping State, local, Tribal, and 
territorial governments enhance their ability to prepare for, respond 
to, recover from, and mitigate against terrorist attacks. As the 
representative for New Jersey's 10th Congressional District, I 
understand importance of these grants programs. My district contains 
Newark Liberty International Airport, the New Jersey Transit Authority, 
and the Port Newark-Elizabeth Marine Terminal. This in addition to 
having a dense area of industrial facilities and being in close 
proximity to New York City, the Newark-Jersey City area has 
consistently been considered one of the highest-risk urban areas in the 
Nation and has been referred to as the most dangerous 2 miles in 
America.
    Throughout my time in Congress, New Jersey's emergency preparedness 
has depended on financial assistance from DHS's preparedness grant 
programs. The Urban Area Security Initiative, commonly referred to as 
UASI has been particularly helpful with supporting my district's 
ability to build and maintain important capabilities necessary to make 
and keep us safe. At the same time, the funding has helped ensure that 
first responders have the resources they need to do their jobs 
effectively and safely. America's security depends on this important 
Federal investment, so I am disappointed in the President's regular 
efforts to slash preparedness grant funding. For example, President 
Trump proposed over $900 million in cuts to DHS preparedness grant 
funding for fiscal years 2018 and 2019. The President's fiscal year 
2020 budget would have cut existing preparedness grant funding by 
nearly $700 million. The threat landscape is ever-evolving, and a lack 
of preparedness funding from the Federal Government would make it that 
much more difficult for States to meet their homeland security needs.
    Today, America is at an elevated risk of terrorist attack following 
the killing of Iranian general Qassem Soleimani by U.S. forces in Iraq. 
Because Iran has promised revenge, jurisdictions like mine are on 
heightened alert and have to be more vigilant. We are also reminded of 
homeland security needs by events like the Jersey City shooting at a 
Jewish grocery store last month that claimed the lives of 4 victims, 
including a police officer. The loss of one life is too many, and I can 
only imagine how this tragedy would have unfolded if Jersey City was 
not armed with the capabilities they were able to build with DHS 
preparedness grant funding. This instance mounted on top of the near 
dozen anti-Semitic acts that occurred in the past month in New York 
more than evidence the problems we have with domestic terrorism in this 
country, and underscore the threat against religious communities. In 
light of this, I am proud to have supported Chairman Thompson's efforts 
to secure funding to protect nonprofit organizations at risk of 
terrorist attacks, through his legislation, the ``Securing American 
Nonprofit Organizations Against Terrorism Act of 2019,'' which passed 
in the House and Senate this Congress. DHS preparedness grants have 
proved to be an invaluable investment in America's security, and I am 
pleased that this committee has consistently supported and encouraged 
robust funding for these grant programs.
    I look forward to hearing from the witnesses on how they use DHS 
grant funding to secure their communities and whether any improvements 
can be made to these grant programs in order to enhance homeland 
security.

    Mr. King. Thank you, Mr. Chairman.
    I want to welcome all the witnesses here today. I have a 
prepared statement. I will just insert that into the record.
    I would like to first of all thank all the witnesses for 
being here today. I think it is especially appropriate that 
these precise witnesses we have here today. John Miller, 
obviously from New York, with the tremendous threats we face 
from Hezbollah in Iran, in addition to the everyday threats we 
face. Mr. Miller, in view of the space of horrible anti-Semitic 
attacks we have had in recent times and, Mr. Kierce, the 
terrible assault that took place in Jersey City.
    Mr. Sprayberrry, it is really interesting. My daughter just 
moved to Charlotte, and you moved from where my district office 
is located down in New York. I have to say with Mr. Bishop 
here, from North Carolina, that you have really managed to 
overcome your accent. You and I don't talk alike at all, even 
though my office is located where you grew up. So you don't 
even talk like me or John Miller. Well, nobody talks like John 
Miller.
    But very seriously, these are serious times and as the 
Chairman mentioned, the Trump administration and before that 
the Obama administration, had tried to make drastic cuts in 
Homeland Security in the funding. Maybe we are victims of our 
own success because there have not been successful attacks of 
the United States. Somehow terrorism recedes to the background. 
The fact is thankfully Congress, both under the Obama 
administration and the Trump administration, has restored the 
Homeland Security funding, but to me it just sends a bad signal 
when the administrations don't realize how real these threats 
are, how terrible these threats are, and how our world can turn 
upside down on a moment's notice.
    So I want to thank Chairman Payne for his efforts in 
fighting hard for the funds, as I tried to do when I was in the 
Majority, when I was Chairman.
    Now, again, we do live in dangerous times and that was made 
more dangerous last week with the killing of Soleimani which I 
supported but, even if I didn't, the fact is, as Americans, we 
have to defend ourselves.
    So Mr. Miller, certainly during your testimony, whatever 
you can expand on as far as what we are doing with Hezbollah 
and Iranian operatives here in the country.
    Mr. Masters, as far as anti-Semitism, it is something which 
doesn't appear limited to any particular group of attackers. It 
has been a wide range unfortunately. People are focused on 
anti-Semitism.
    Mr. Kierce, if you could really discuss what went on in 
Jersey City and how you feel as far as the grant funding going 
to nonprofits and to various religious institutions, what has 
to be done to improve on those.
    Mr. Sprayberrry, going beyond terrorism, the fact of 
natural disasters and the fact I know Charlotte--my daughter 
reminded me of this--has been taken off the list.
    So, again, all these are so important today and, again, I 
think that when this committee was formed, the whole world was 
talking about Homeland Security. Because we have managed to do 
a very good job over the last 15, 17 years, somehow people 
think the problem is not there.
    I would say the threats are as great today as they were 
prior to 9/11. Thankfully we have defenses in place, but of all 
the defenses we have in place, the enemy is constantly adapting 
and they can afford to make mistake after mistake. We can't 
afford to make any mistakes.
    Again, with anti-Semitism, which many of us had hoped was 
just a creature of the past, the fact that that is now 
reemerging and, again, without going into a whole debate over 
climate change and everything else, the fact that we have seen 
such increase in natural disasters and we saw it on Long 
Island. Your old neighborhood, was under water with Hurricane 
Sandy, storms we hadn't seen in 50 years, 60 years.
    So in any event, again, Chairman, I commend you for having 
these witnesses here today. Unfortunately, it is at a 
particularly appropriate time, more appropriate than we would 
like, but the fact is that is the reality and we are here to 
face reality.
    So thank you and I yield back the balance of my time.
    [The statement of Ranking Member King follows:]
               Statement of Ranking Member Peter T. King
                            January 9, 2020
    I want to thank Chairman Payne for holding today's hearing to 
discuss critical preparedness grant programs. This hearing is 
especially timely considering the Department of Homeland Security's 
recently released National Terrorism Advisory System (NTAS) Bulletin 
highlighting concerns of potential retaliation actions from Iran or its 
terrorist partner, Hezbollah. While we're not aware of a specific 
threat to the United States, violent extremist organizations have the 
intent and capability to conduct attacks in the homeland with little or 
no warning. It is imperative that capabilities are in place to thwart 
any potential attack.
    FEMA's preparedness grants provide State, local, Tribal, and 
territorial governments the ability to build, sustain, and improve 
capabilities to prepare for, protect against, respond to, recover from, 
and mitigate all hazards, including terrorism threats.
    Federal funds through vital grant programs such as the State 
Homeland Security Grant Program, Urban Area Security Initiative, Port 
Security Grant Program, and Transit Security Grant Program enable local 
communities to support their first responder workforce and to harden 
their defenses against potential attacks.
    From 9/11 to the Boston Marathon bombing and the San Bernardino 
killings, we continue to see terrorist attacks on U.S. soil. And as 
evidenced by the 2016 Chelsea bombing, the 2017 vehicle ramming in 
lower Manhattan, and the subsequent 2017 Port Authority bombing, the 
New York City urban area remains our Nation's top terror target.
    Federal grant funding has enabled the NYPD, FDNY, and the New York 
City Department of Emergency Management to conduct training and 
exercises, provide public education and outreach, and develop response 
protocols, and safety initiatives to significantly increase security 
measures.
    In his statement before the subcommittee last March, former chief 
of NYPD's Counterterrorism Bureau, Jim Waters, said that Federal 
funding, if eliminated or reduced would result in an erosion of 
capabilities, cessation of initiatives, and a significant limitation of 
NYPD's overall emergency preparedness posture.
    The importance of these grants cannot be understated.
    Unfortunately, time and again, Presidential budget requests have 
proposed slashing funding to State and local first responders--
regardless of administration. We must ensure our first responders have 
the tools they need to get the job done and keep us safe.
    I would be remiss if I didn't also mention the importance of FEMA's 
Nonprofit Security Grant Program. The Non-Profit Security Grant program 
provides critical funding to harden security at houses of worship, 
community centers, schools, and other cultural institutions. The 
unfortunate reality is that threats to religious institutions and other 
soft targets are not going away and, in fact, are increasing at an 
alarming rate.
    There have been a number of attacks both overseas and domestic in 
places of worship. Most recently in the United States there were 
synagogue shootings in both Poway, California last year that left 1 
dead and at the Tree of Life Synagogue in 2018 where 11 people were 
murdered. I have been a long-time supporter of the Non-Profit Security 
Grant program and was proud to be a cosponsor of Chairman Thompson's 
legislation to formally authorize the program.
    Preparedness grants that support our States, urban areas, ports, 
transit systems, and non-profits are crucial to maintaining 
capabilities, providing training, and purchasing equipment for the 
overall protection of our communities and way of life. I look forward 
to hearing from our witnesses on the importance of these grant programs 
and how they've supported and continue to enhance critical safety and 
security initiatives.

    Mr. Payne. Well Ranking Member, I always appreciate your 
leadership in this area. I know you have been at this since the 
beginning. So we respect your leadership----
    Mr. King. Thank you, Chairman.
    Mr. Payne [continuing]. In this area.
    Other Members of the subcommittee are reminded that under 
the committee rules opening statements may be submitted for the 
record.
    [The statement of Chairman Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                            January 9, 2020
    These grants were created after the horrific events of September 
11, 2001, and the Department of Homeland Security was tasked with 
administering them. The new homeland security grant programs, also 
commonly referred to as preparedness grants, were created to provide 
critical resources to help protect communities from threats. While 
States and localities have made great strides in their preparedness 
capabilities since 2001, the threats our country face continue to 
evolve and we must keep pace with them. After 2001, the country's focus 
was on combating terrorism from abroad, such as our enemies from al-
Qaeda, to ensure another attack would never reach our homeland.
    Cyber threats, which were an afterthought when DHS was first 
established, have moved to the forefront of threats we face every day--
and one in which our ability to respond remains sorely lacking. Recent 
events have brought to the forefront the threats posed by Iran and its 
proxies. It is not only State and local governments who must be 
prepared to respond to acts of terror. Houses of worship and other 
nonprofits have increasingly seen themselves targeted for acts of 
violence. That is why I was proud to introduce H.R. 2476, the American 
Nonprofit Organizations Against Terrorism Act of 2019, which authorizes 
$75 million annually through fiscal year 2024 for the Department of 
Homeland Security's Nonprofit Security Grant Program (NSGP). The 
program provides grants to nonprofits and faith-based organizations to 
help secure their facilities against a potential terrorist attack. I am 
pleased the bill passed both the House and Senate this Congress and I 
hope that the President will sign it into law shortly. While 
authorizing the Nonprofit Security Grant Program is an important step, 
Congress must make sure that all the Homeland Security Grant Programs 
are properly funded to support our partners.
    Unfortunately, President Trump's fiscal year 2018, 2019, and 2020 
proposed budgets recommended cutting existing preparedness grant 
funding by nearly a billion and a half dollars in total. Though 
Congress has continually rebuked these proposed cuts, I am concerned 
the administration will once again propose cuts for fiscal year 2021. 
Such cuts would hinder jurisdictions from building and maintaining 
important capabilities communities rely on to keep America secure. 
Given recent events in Iran, other persistent foreign terrorist 
threats, and rising domestic terrorism, we must instead redouble our 
efforts to support State and local communities.
    I look forward to hearing from stakeholders today on how 
preparedness grants have aided them as they make their communities 
safer, and how Congress can support their efforts against all forms of 
terrorism in our homeland.

    Mr. Payne. I welcome our panel of witnesses. Our first 
witness is Mr. Michael Sprayberry, the executive director of 
North Carolina Department of Public Safety, division of 
Emergency Management Office of Recovery and Resiliency. 
Welcome.
    Our second witness is Mr. George Kierce, the director--Greg 
Kierce--I am sorry--Greg Kierce, the director of Jersey City's 
Office of Emergency Management and Homeland Security. I should 
know that.
    Mr. Kierce has previously appeared before our panel. 
Welcome back and thank you for your continued willingness to 
assist this subcommittee in its oversight efforts.
    Our third witness is Mr. Michael Masters, the director and 
CEO of Secure Community Network.
    Our fourth and final witness is Mr. John Miller, the deputy 
commissioner of intelligence and counterterrorism within the 
New York City Police Department. Mr. Miller has previously 
appeared before our panel as well.
    Thank you, too, for your continued support of this 
subcommittee's oversight.
    Without objection, the witnesses' full statements will be 
inserted into the record. I now ask each witness to summarize 
his or her statement for 5 minutes, beginning with Mr. 
Sprayberry.

 STATEMENT OF MICHAEL A. SPRAYBERRY, DIRECTOR, NORTH CAROLINA 
  EMERGENCY MANAGEMENT, NORTH CAROLINA OFFICE OF RECOVERY AND 
                           RESILIENCY

    Mr. Sprayberry. Good morning, Chairman Payne, Ranking 
Member King, and distinguished Members of the committee. Thank 
you for this opportunity to testify today on behalf of the 
State of North Carolina.
    As you know, our State is intimately familiar with a 
multitude of risks and hazards. Like all States, we rely 
heavily on Federal preparedness grant funding to help the 
Federal Government close the National preparedness grant in 
order to prepare for, respond to, recover from, and mitigate 
potential impacts to address many of the cascading effects from 
these hazards. Today I will quickly discuss two.
    In the Homeland Security Grant program, North Carolina has 
been the recipient of funding from two major programs, the 
State Homeland Security Grant Program and the Urban Area 
Security Initiative. These two grant programs are vitally 
important to enhancing State and local preparedness for all 
hazard events to include acts of terrorism.
    A key finding of the 2018 study conducted by the National 
Homeland Security Consortium to evaluate return on investment 
found that for every green dollar invested, the median return 
was $1.70 for State emergency management and Homeland Security 
agencies. True value.
    North Carolina can attest to the impact of these Federal 
preparedness grants that have impact on catalyzing and 
substantiating our advancements to terrorism preparedness. This 
funding is utilized to develop local and State capacity for 
everything from building cyber capacity to funding active-
shooter exercises.
    Over the years the funding awarded in these two grant 
programs has been significantly reduced. To provide some 
perspective on the changes in reductions in program support, 
the State of North Carolina in 2009 received approximately $20 
million in the State Homeland Security Grant Program, $5 
million of which was use for the Urban Area Security 
Initiative. In 2019, we received $5.7 million and our UASI 
jurisdiction of Charlotte was not funded.
    I would like to state for the record that the removal of 
Charlotte, the host of the 2020 Republican National Convention, 
from the list of funded UASI jurisdictions is problematic. As 
the State's most populus jurisdictions with a large presence of 
critical infrastructure to include one of the largest 
concentrations of financial institutions Nation-wide, the lack 
of funding to support the jurisdiction has put our State at 
significant risk.
    In a time of ever-increasing threats and risks, this is 
time for a closer State and local partnership for more 
significant and faster financial investments, not continued 
funding fluctuations or reductions.
    Regarding preparedness grants, I want to note that the 
Federal Emergency Management Performance Grant, EMPG, is a 
foundational component of the emergency management funding at 
both the local and State level and is essential to the 
sustainment of our response and recovery capabilities for all 
States and territories.
    We greatly appreciate Congress' demonstration of support in 
this program with the $5 million increase for fiscal year 2020, 
and we are committed to continuing to demonstrate to you the 
return of this investment.
    To better support the State's addressing preparedness 
response recovery mitigation effectively, we would offer the 
following recommendations. No. 1. An all-hazards grants 
approach to acknowledge the way States are now organized to 
address the evolving threat dynamic, implement a true all-
hazards approach for grant programs beyond a narrow terrorism 
focus as threats and hazards evolve in order to allow States to 
address their new needs.
    No. 2, grant flexibility, flexibility in State allocation 
of grant funding, particularly in recovery funds after 
disasters to address main strategic needs and not a one-size-
fits-all approach across disasters and States.
    No. 3. Well-defined risk assessment metrics. Development of 
a well-defined, defensible metrics to determine the risk and 
threat to metropolitan statistical areas and a process is that 
transparent and conducted in partnership with the States.
    No. 4. A common application for disaster survival recovery 
programs. Implementation of a common application for disaster 
survivors that can be used across all Federal disaster recovery 
programs to aid in speeding the award of vital funding and 
support to survivors.
    Finally No. 5, faster disaster funding allocation. Increase 
speed of disaster fund allocation, specifically with CDBG-DR. 
To date, North Carolina has not received its Hurricane Florence 
CDBG-DR at funding allocation from HUD.
    On behalf of the State of North Carolina, thank you again 
for holding this hearing and drawing attention to the needs of 
the Emergency Management and Homeland Security community, 
working to enhance preparedness for terrorism and other threats 
to communities. Thank you.
    [The prepared statement of Mr. Sprayberry follows:]
              Prepared Statement of Michael A. Sprayberry
                            January 9, 2020
    Good morning, Chairman Payne, Ranking Member King, and 
distinguished Members of the committee. Thank you for the opportunity 
to testify before you today.
    I am honored to testify today on behalf of the State of North 
Carolina and the department of public safety in my position as the 
executive director of the Division of Emergency Management and the 
Office of Recovery and Resiliency.
    Unfortunately, our State is intimately familiar with a multitude of 
risks and hazards, spanning everything from major hurricanes and severe 
weather to critical infrastructure threats such as cyber disruption. We 
rely heavily on Federal grant funding to help the Federal Government 
close the National preparedness gap and prepare for, respond to, 
recover from, and mitigate potential impacts to address many of the 
cascading effects from these hazards. Today, I want to discuss two 
specific programs within the larger Homeland Security Grant Program: 
First, the State Homeland Security Grant Program (SHSGP) and second, 
the Urban Area Security Initiative (UASI).
                 homeland security grant program (hsgp)
    As you are aware, the Homeland Security Grant Program originated 
after the September 11, 2001 attacks in order to support the building, 
sustainment, and delivery of core capabilities in States, territories, 
urban areas, and local and Tribal governments and to develop a more 
secure and resilient Nation. This overarching program is comprised of 3 
grant programs: The State Homeland Security Grant Program (SHSGP), the 
Urban Area Security Initiative (UASI), and the Operation Stonegarden 
Grant Program (OPSG), which addresses border security.
State Homeland Security Grant Program
    Each State and territory is awarded a minimum allocation under this 
program for the purposes of strengthening core capabilities in 
prevention, protection, mitigation, and response to all hazards faced 
by a jurisdiction. In fiscal year 2019, the Federal allocation for this 
program was a total of $525 million and the recent Federal 
appropriations bill increased the Federal allocation to $560 million 
for fiscal year 2020.
Urban Area Security Initiative
    The Urban Area Security Initiative (UASI) is designed to enhance 
regional preparedness in major metropolitan areas, recognizing that 
these areas must address unique risks associated with large 
concentrations of residents and visitors and critical infrastructure. 
Eligibility for the UASI program is determined by an analysis of 
relative risk of terrorism faced by the 100 most populous metropolitan 
statistical areas (MSAs) in the United States. In appropriating for 
this program, Congress has expressed its intent that the Secretary for 
the Department of Homeland Security fund up to 85 percent of Nation-
wide risk in the UASI program.
              national and state impacts of shsgp and uasi
    These grant programs are critical to enhancing State and local 
preparedness for all-hazards events, to include acts of terrorism, and 
we remain committed to doing our part to support the Federal Government 
in ensuring Nation-wide preparedness. Despite this long-standing 
partnership, there has been a lack of information as to the return on 
investment of State, local, and Federal spending on SHSGP and UASI. 
Understanding that this lack of information may have played a role in 
fluctuations in funding, in 2018 the National Homeland Security 
Consortium conducted a study to evaluate how much money has been 
invested by State and local governments on terrorism preparedness, how 
that spending has been affected by Federal assistance, and what 
capabilities we as States and localities have now that we did not have 
in 2001. To collect this information, a survey was issued to all 50 
States and to jurisdictions from 50 urban areas currently and formerly 
eligible for UASI funds. The goal of the survey was to determine how 
much money has been invested by State and local governments.
    A key finding from the 2018 survey is that for every SHSGP and UASI 
grant dollar invested, the median return was $1.70 for responding State 
emergency management and homeland security agencies; for local 
emergency management and homeland security agencies, it was $0.92. 
Furthermore, return on investment generally increased when considering 
other jurisdictional agencies involved with, but not responsible for 
preparedness activities. In reviewing the survey results, the 
Consortium also concluded that these grant programs provided support to 
251 State exercises and 123 UASI jurisdiction exercises in 2017. Lack 
of coordination among first responder agencies was one of the 
challenges identified in the 9/11 Commission Report, further 
underscoring that these grant programs are a key pillar of support for 
enhanced preparedness Nation-wide.
    North Carolina can attest to the impact these Federal preparedness 
grants have on catalyzing and substantiating our advancements in 
terrorism preparedness. This funding is utilized to develop local and 
State capacity for everything from incident management team personnel 
to specialized search-and-rescue and hazardous materials teams. 
Preparedness grant funding is routinely used for incident response 
technologies to enhance our fusion center integration and cybersecurity 
team capabilities. Active-shooter and cybersecurity exercises, funded 
by these grants, are also held annually throughout the State in many 
jurisdictions.
    As a follow-up to the 2018 report, North Carolina's All Hazards 
Technical Search and Rescue (SAR) Program was selected as a case study 
to provide additional insight into National preparedness capabilities. 
Funds from SHSGP grants have served as a catalyst for building the 
program and providing the impetus for State and local governments to 
contribute additional support to ensure this specialized response 
program was fully funded. SAR Task Forces in this program have been 
used regularly in disasters, rescuing 2,246 individuals by boat and 79 
individuals by air during Hurricane Matthew and 5,214 personnel and 
1,067 animals rescued during Hurricane Florence. Knowing we accomplish 
nothing alone, these teams have also been routinely deployed Nation-
wide to support search-and-rescue efforts in other States.
    To provide some perspective on the changes and reductions in 
program support, in 2009, the State of North Carolina received 
approximately $20 million in State Homeland Security Grant Program 
funds, $5 million of which was for the Urban Area Security Initiative. 
In 2019, we received $5.7 million and our UASI jurisdiction of 
Charlotte, NC was not funded.
    Due to this reduction, we have not been able to fund significant 
new initiatives to improve our preparedness. Meanwhile, the threats and 
risks have evolved and have significantly reduced the funding to 
maintain existing capabilities. For a State with a rapidly-growing 
population, an increase of critical infrastructure, and associated 
increases in threats and risks, this funding reduction has negatively 
impacted our ability to protect our State and to contribute to the 
larger National preparedness.
    I would like to State for the record that the removal of Charlotte 
from the list of funded UASI jurisdictions is problematic. As the 
State's most populous jurisdiction with a large presence of critical 
infrastructure, to include one of the largest concentrations of 
financial institutions Nation-wide, the lack of funding to support the 
jurisdiction has put our State at risk. Their ability to maintain 
response capability has been detrimentally impacted, as well as their 
ability to implement new programs, such as a robust cybersecurity 
initiative, to adequately protect their residents, visitors, and 
infrastructure. Of particular concern is that with the loss of their 
UASI funding, Charlotte will be unable to fund planned purchases of 
anti-terrorism equipment for law enforcement, bomb squad equipment and 
communications equipment. Additionally, planned exercises will be 
unable to be funded. With major mass gatherings and public events 
occurring almost weekly in the jurisdiction and with the 2020 
Republican National Convention scheduled for August, the ability to 
respond to known threats and hazards has been diminished, not to 
mention the ability to proactively address emerging threats.
    States have long known the impact of the preparedness grant 
programs on their capabilities to develop and sustain a more secure and 
resilient Nation, but as time has passed and Federal priorities have 
shifted since 2001, these grant programs have struggled. While States 
and localities have made significant efforts to fund terrorism 
prevention in this new funding era, merely sustaining those already 
built capabilities have slowed or stopped many jurisdictions from 
progress toward the National Preparedness Goal. As such, many States 
are already sacrificing capability, foreshadowing even more severe 
consequences if program funds are cut in the future.
    Managing response and recoveries to natural hazards is one area of 
success in the State-Federal grant relationship. In North Carolina as 
well as the entire Nation, the Federal Emergency Management Performance 
Grant (EMPG) is a foundational component of emergency management 
funding at both the local and State level, and essential to the 
sustainment of our response and recovery capabilities. EMPG gives State 
and local emergency managers great flexibility in managing funds and 
priorities. As such, according to a joint report by the National 
Emergency Management Association and International Association of 
Emergency Managers, capabilities built and sustained with EMPG, 
including the dollar-for-dollar match, allowed grantees to manage 
23,331 events in fiscal year 2018 without additional Federal assistance 
or expenditures. We greatly appreciate Congress' demonstration of 
support in this program with the $5 million increase for fiscal year 
2020, and both associations are committed to continuing to demonstrate 
to you the return on this investment.
                  on-going recovery in north carolina
    The last 4 years have been challenging for North Carolina. In 
addition to the multitude of other events that have impacted the State 
since 2016, the residents of our State have sustained significant 
damage and disruption from 4 major tropical weather systems: Hurricane 
Matthew (2016), Hurricane Florence (2018), Tropical Storm Michael 
(2018), and Hurricane Dorian (2019).
    Damage from Hurricane Florence, now our storm of record, alone 
totaled more than the cost we experienced during Hurricane Matthew and 
Hurricane Floyd combined. We were the only State where Hurricane Dorian 
made landfall this past year. While North Carolina is known for impact 
from hurricanes, in the past few years we have also received major 
disaster declarations for tornados and severe storms, as well as 2 
Federal fire management assistance declarations. As a State which 
experiences a broad spectrum of natural and man-made hazards that occur 
Nationally, we are attuned to the needs of our residents in disaster 
recovery and focused on a more resilient path forward.
    To lead the State's efforts to rebuild smarter and stronger in the 
wake of Hurricane Florence, Governor Cooper established the North 
Carolina Office of Recovery and Resiliency (NCORR). The office provides 
disaster recovery coordination with services including oversight of 
recovery funding, processing of program applications, construction and 
vendor management, and public outreach and education, among many other 
responsibilities. With NCORR now up and running for a single year, 
North Carolina is on the road to a stronger recovery with a team of 
State, Federal, and volunteer partners dedicated to helping communities 
rebuild to be more resilient and better prepared to weather future 
events.
    NCORR oversees the Community Development Block Grant for Disaster 
Recovery (CDBG-DR) program for the State, managing the disbursement of 
funds that will total close to $1 billion when the next allocation of 
funding for Hurricane Florence is disbursed. It should be noted, that 
to date, we have not received funds for Hurricane Florence which 
occurred in 2018. In keeping with the CDBG-DR mandate to prioritize the 
recovery spending in low-income areas, our Housing Recovery Programs 
tackle the State-wide shortage of affordable housing in coordination 
with partners at the State and local levels. We are seeking to instill 
resiliency in all of our recovery projects, which enhances coordination 
across all of our emergency management efforts, including our recovery 
support functions and the State-wide disaster recovery task force. To 
that end, the Governor has appointed a State Chief Resiliency Officer 
with 2 deputies to guide our resiliency efforts.
                      challenges & recommendations
    To better support the States in addressing preparedness, response, 
recovery, and mitigation effectively, we would offer the following 
recommendations:
    1. All-Hazards Grants Approach.--To acknowledge the way States are 
now organized to address the evolving threat dynamic, implement a true 
all-hazards approach for grant programs beyond a narrow terrorism focus 
as threats and hazards evolve in order to allow States to address their 
known needs;
    2. Grant Flexibility.--Flexibility in State allocation of grant 
funding, particularly in recovery funds after disasters, to address 
known strategic needs and not a ``one size fits all'' approach across 
disasters and States;
    3. Common Application for Disaster Survivor Recovery Programs.--
Implementation of a common application for disaster survivors that can 
be used across all Federal disaster recovery programs to aid in 
speeding the award of vital funding and support to survivors; and
    4. Faster Disaster Funding Allocation.--Increased speed of disaster 
funding allocation, specifically with CDBG-DR.
    5. Well-Defined Risk Assessment Metrics.--Development of well-
defined, defensible metrics to determine the risk and threat to 
Metropolitan Statistical Areas and a process that is transparent and 
conducted in partnership with the States.
                               conclusion
    On behalf of the State of North Carolina, thank you again for 
holding this hearing and drawing attention to the needs of the 
emergency management and homeland security community working to enhance 
preparedness for terrorism and other threats to communities. We are 
acutely aware that the wide variety of threats and vulnerabilities 
faced by States and major urban areas continue to evolve, and if we do 
not evolve with them, we risk falling behind. As you consider the 
topics of this hearing, please remember that while the Federal 
preparedness programs can always be improved, they do continue to make 
real differences in our Nation's capacity to defend against terrorist 
threats.

    Mr. Payne. Thank you for your testimony.
    I now recognize Mr. Kierce to summarize his statement for 5 
minutes.

 STATEMENT OF W. GREG KIERCE, DIRECTOR, JERSEY CITY OFFICE OF 
           EMERGENCY MANAGEMENT AND HOMELAND SECURITY

    Mr. Kierce. Chairman Payne, Ranking Member King, and 
Members of the committee, the attacks of September 11, 2001, 
were defining moments in our attitudes toward terrorism. More 
than a decade-and-a-half later, people can still recall where 
they initially heard about or saw footage of the Twin Towers 
collapse.
    In the wake of this tragedy, the Federal Government took 
numerous actions to better prepare our Nation for future 
terrorist attacks. Among those actions were new legislation and 
appropriations that committed to using Federal grants to 
bolster State and local capabilities in defense of terrorism 
threats and close the gaps in National preparedness not filled 
practically by the Federal Government.
    Two of the most critical grants were the State Homeland 
Security Grant and the Urban Area Security Initiative. Eighteen 
years, both programs have made a testament to their importance. 
Congressional appropriations to the grant programs have 
diminished over time. Absent information on a return on 
investment, such as the corresponding contributions invested by 
the States and local Governments, these grants remain an easy 
target for funding cuts.
    For example, beginning in fiscal year 2011, the SHSP and 
UASI grants were roughly halved over a 2-year period. Without 
better information about these contributions of States and 
localities to increasing terrorism preparedness, Federal 
preparedness grants may face further elimination.
    In 2019, New Jersey received $36,331,372 in Homeland 
Security grants. Included were $20,050,000 from Urban Area 
Security Initiative program to benefit law enforcement 
terrorism prevention activities in Newark and Jersey City 
areas; $8 million State Homeland Security Grant, and $8.82 
Emergency Management Performance Grants.
    The UASI grant for Newark and Jersey City resulted in an 11 
percent decrease from fiscal year 2018 funding levels. The 
total population associated with the Jersey City/Newark UASI is 
approximately 4,792,594 which equates to more than half the 
entire population of the State of New Jersey, making this 
region one of the most densely populated areas in the United 
States.
    In the middle of this is a section of New Jersey Turnpike 
in Union and Essex Counties that runs to what the FBI and 
Government officials in New Jersey have dubbed the most 
dangerous 2 miles in America. This includes the largest port on 
the East Coast, Newark airport, major airlines, densely-
populated cities, and chemical and petroleum refineries, all of 
which create a target-rich environment.
    Cuts to the Federal programs designed to fight terrorism 
may mean that some hard charges are on the horizon. Law 
enforcement and emergency preparedness professionals are 
constantly training, planning, and equipping themselves to 
respond to threats of terrorism on the communities. They rely 
heavily on U.S. UASI grants to ensure New Jersey is a safe 
place to live and work and raise families.
    Given a wide variety of threats and vulnerabilities that 
States and major areas face, it is not surprising they have 
adopted different attitudes toward terrorism preparedness.
    Moreover, jurisdictions have had to formulate their 
approaches and make decisions, even as our Nation's 
understanding of what constitutes terrorism preparedness has 
continued to evolve and in the face of corresponding shifts in 
Federal priorities. For a few jurisdictions, terrorism 
preparedness is a Federal responsibility discharged through 
Federal grants.
    Since 9/11, white supremacists and other far-right 
extremists have been responsible for almost 3 times as many 
attacks on U.S. soil as Islamic terrorists, as Government 
reported. From 2009 to 2018, the far right has been responsible 
for 73 percent of domestic extremist-related fatalities, 
according to a 2019 study by the Anti-Defamation League. More 
than 49 people were murdered by far right of extremists in the 
United States last year.
    The horrific act of domestic terrorism which occurred in my 
city on December 10, 2019, is a prime example of this 
statement. At 12:43 hours the police radios crackled with 
urgency. In the back of the cemetery we have a PO shot in the 
head, down in the ground, in a lifeless conditions.
    Responding police units found Detective Joseph Seals laying 
mortally wounded on the ground. Detective Seals was a highly-
decorated, well-respected Jersey City police officer. He was a 
member of the department's Cease Fire Unit, a squad formed in 
2013, mainly tasked with investigating nonfatal shootings.
    On the morning in question, Seals was on the streets of 
Greenville, near Bayview Cemetery. He spotted a U-Haul cargo 
van which was the subject of a homicide BOLO from a neighboring 
city. As Detective Seals lay dead in the Jersey City historic 
Bayview Cemetery, a deadly rampage by the officer's killers was 
under way just a mile away.
    A security camera captured the horror as a white U-Haul 
cargo van pulled up in front of a Catholic elementary school 
across the street from an orthodox synagogue and kosher grocery 
store on Martin Luther King Drive. The driver, David Anderson, 
clad in a dark trench coat, burst out of the car with an AR-15-
style rifle in his right hand. He immediately started firing as 
he crossed the streets in the pouring rain.
    His passenger, Francine Graham, got out, carrying a 
Mossberg 12-gauge shotgun and followed him.
    Without passing--pausing, Anderson fired one round into the 
Jersey City Kosher Supermarket to the right of a nondescript 
synagogue and upstairs yeshiva filled with 60 children. 
Terrified people on the sidewalk scattered. Some dove for 
cover. Some ran full speed down the street. Anderson and Graham 
disappeared into the store.
    Leah Minda Ferencz, a mother of 3, owned the grocery store 
with her husband, Moishe Ferencz. He had left the store briefly 
to go to the synagogue next door for the afternoon prayer.
    Douglas Miguel Rodriguez, 47, a store employee, was found 
near the back entrance, believed to have been shot as he sought 
to escape. Married with an 11-year-old daughter, he had come to 
the United States from Ecuador 3 years earlier.
    Moshe Deutsch, a 23-year-old rabbinical student visiting 
from Williamsburg, was inside, getting a sandwich.
    In the next few minutes 2 police officers running to the 
scene in the Greenville section were shot and wounded.
    In the more than 3 hours that followed, Martin Luther King 
Drive between Bidwell and Bayview Avenues turned into a war 
zone. Hundred of shots were fired, bullets smacking into the 
Sacred Heart School on the other of side of MLK Drive where 
children huddled. Police helicopters hovered overhead while 
SWAT teams took up positions on the rooftops. A Jersey City 
Police Department BearCat armored vehicle rumbled into position 
in the front of the store, detectives firing from inside.
    The siege finally ended when the armored vehicle, occupied 
by tactically equipped police officers, breached the grocery 
store, engaging both subjects. Only then did the officers find 
the bodies of 3 victims, along with the 2 shooters who were 
shot dead by police. In their abandoned U-Haul van was a pipe 
bomb and note. ``I do this because my creator makes me do this, 
and I hate who he hates.''
    The horrific event was brought to a conclusion due to the 
tactical equipment and training provided to law enforcement 
officers, all of which were funded through the UASI grant. 
State and local officials are responsible for initiating the 
critical first response in the U.S. preparedness system which 
calls for the lowest possible level of Government to manage an 
emergency.
    States have very little resources for this on their own. 
They have relied on the Federal Government from the beginning. 
They have essentially been able to stand up their preparedness 
activities in the last decade on the shoulders of the Federal 
support.
    Simply put, reduced Homeland Security funding places our 
Nation at risk. It minimizes our capacity to mitigate, prepare, 
respond, and recover from hazard events while simultaneously 
increasing our risk. If we are to continue to prepare for, 
respond to, and recover from evolving threats, and disasters, 
we will need sufficient resources to sustain and adapt our 
capabilities accordingly.
    In closing, I wish to extend my sincere thanks for 
affording me the opportunity to appear before you today.
    [The prepared statement of Mr. Kierce follows:]
                  Prepared Statement of W. Greg Kierce
                            January 9, 2020
    Chairman Payne, Ranking Member King, and Members of the committee: 
The attacks of September 11, 2001, were defining moments in our 
attitudes toward terrorism. More than a decade-and-a-half later, people 
can still recall when they initially heard about or saw footage of the 
Twin Towers' collapse.
    In the wake of this tragedy, the Federal Government took numerous 
actions to better prepare our Nation for future terrorist attacks.
    Among these actions were new legislation and appropriations that 
committed to using Federal grants to bolster State and local 
capabilities in defense against terrorism threats and close those gaps 
in National preparedness not filled practically by the Federal 
Government.
    Two of the most critical grant programs were the State Homeland 
Security Program (SHSP) and the Urban Areas Security Initiative (UASI). 
Eighteen years later, both programs remain--a testament to their 
importance.
    Congressional appropriations to the grant programs have diminished 
over time. Absent information on the return on investment, such as the 
corresponding contributions invested by States and local governments, 
these grants remain an easy target for funding cuts.
    For example, beginning in fiscal year 2011, SHSP and UASI grants 
were roughly halved over a 2-year period.
    Without better information about the contributions of States and 
localities to increasing terrorism preparedness, Federal preparedness 
grants may face further reductions or elimination.
    In 2019, New Jersey received $36,331,372 in Homeland Security 
grants.
    Included were: $20,050,000 from the Urban Area Security Initiative 
(UASI) program to benefit law enforcement terrorism prevention 
activities in the Newark and Jersey City areas.
  <bullet> $8,000,000 State Homeland Security Program (SHSP)
  <bullet> $8,281,372 Emergency Management Performance Grants
    The UASI grant for Newark/Jersey City resulted in an 11 percent 
decrease ($2,700,000) from fiscal year 2018 funding levels.
    The total population associated with the Jersey City/Newark UASI is 
approximately 4,792,594 which equates to more than half the entire 
population of the State of New Jersey making this region one of the 
most densely populated areas in the United States.
    In the middle of it all is a section of the NJ Turnpike in Union 
and Essex counties that runs through what the FBI and Government 
officials from New Jersey have dubbed ``the most dangerous 2 miles in 
America''.
    This area includes the largest port on the East Coast, Newark 
Airport, major rail lines, densely populated cities and chemical and 
petroleum refineries all of which create a ``target-rich environment''.
    Cuts to Federal programs designed to fight terrorism may mean that 
some ``hard choices'' are on the horizon.
    Law enforcement and emergency preparedness professionals are 
constantly training, planning, and equipping themselves to respond to 
the threat of terrorism in our communities.
    They rely on UASI grant funding to ensure that New Jersey is a safe 
place to live, work, and raise families.
    Given the wide variety of threats and vulnerabilities that States 
and major urban areas face, it is not surprising that they have adopted 
different attitudes toward terrorism preparedness.
    Moreover, jurisdictions have had to formulate their approaches and 
make decisions even as our Nation's understanding of what constitutes 
terrorism preparedness has continued to evolve, and in the face of 
corresponding shifts in Federal priorities.
    For a few jurisdictions, terrorism preparedness is a Federal 
responsibility, discharged through Federal grants.
    Since 9/11, white supremacists and other far-right extremists have 
been responsible for almost 3 times as many attacks on U.S. soil as 
Islamic terrorists, the Government reported.
    From 2009 through 2018, the far right has been responsible for 73 
percent of domestic extremist-related fatalities, according to a 2019 
study by the Anti-Defamation League (ADL). And the toll is growing. 
More people--49--were murdered by far-right extremists in the United 
States last year.
    The horrific act of ``Domestic Terrorism'' which occurred in my 
city on December 10, 2019 is a prime example of this statement.
    At 12:43 hrs. the police radios crackled with urgency!
    ``In the back of the cemetery! We have a PO shot in the head, down 
on the ground in a lifeless condition''.
    Responding police units found Det. Joseph Seals laying mortally 
wounded on the ground.
    Det. Seals was a highly-decorated, well-respected Jersey City 
Police Officer. He was a member of the department's Cease Fire Unit, a 
squad formed in 2013 mainly tasked with investigating non-fatal 
shootings.
    On Tuesday morning, Seals was on the streets in Greenville near 
Bayview Cemetery. He spotted the U-Haul cargo van which was the subject 
of a homicide BOLO from a neighboring city.
    As Det. Joseph Seals lay dead in Jersey City's historic Bayview 
Cemetery, a deadly rampage by the officer's killers was under way just 
a mile away.
    A security camera captured the horror as a white U-Haul cargo van 
pulled up in front of a Catholic elementary school across the street 
from a small orthodox synagogue and kosher grocery store, on Martin 
Luther King Drive.
    The driver, David Anderson, clad in a dark trench coat, burst out 
of the car with an AR-15-style rifle in his right hand. He immediately 
started firing as he crossed the street in the pouring rain.
    His passenger, Francine Graham got out carrying a Mossberg 12-gauge 
shotgun and followed him.
    Without pausing, Anderson fired round after round into the JC 
Kosher Supermarket to the right of a nondescript synagogue and an 
upstairs yeshiva filled with 60 children.
    Terrified people on the sidewalk scattered. Some dove for cover, 
some ran full-speed down the street.
    Anderson and Graham disappeared into the store.
    Leah Minda Ferencz, 33, a mother of 3, owned the grocery with her 
husband, Moishe Ferencz. He had left the store briefly to go to the 
synagogue next door for afternoon minchah prayer.
    Douglas Miguel Rodriguez, 47, a store employee, was found near the 
back entrance, believed to be shot as he sought to escape. Married with 
an 11-year-old daughter, he had come to the United States from Ecuador 
3 years earlier.
    Moshe Deutsch, a 24-year-old rabbinical student visiting from 
Williamsburg, was inside getting a sandwich.
    In the next few minutes, 2 police officers running to the scene in 
the city's Greenville section were shot and wounded.
    In the more than 3 hours that followed, Martin Luther King Drive 
between Bidwell and Bayview avenues turned into a war zone.
    Hundreds of shots were fired, bullets smacking into the Sacred 
Heart School on the other side of MLK Drive, where children huddled.
    Police helicopters hovered overhead while SWAT teams took up 
rooftop positions.
    A JCPD Bear Cat armored vehicle rumbled into position in front of 
the store, detectives firing from inside.
    The siege finally ended when the armored vehicle, occupied by 
tactically-equipped police officers breached the grocery store engaging 
both subjects.
    Only then did officers find the bodies of the 3 victims along with 
the 2 shooters, who were shot dead by police.
    In their abandoned U-Haul van was a pipe bomb and a note: ``I do 
this because my creator makes me do this and I hate who he hates,''.
    This horrific event was brought to a conclusion due to the tactical 
equipment and training provided to law enforcement officers all of 
which was funded through the UASI grant program.
    State and local officials are responsible for initiating the 
critical first response in the U.S. preparedness system, which calls 
for the lowest possible level of Government to manage to an emergency.
    States have very little resources for this of their own--they have 
relied on the Federal Government from the beginning.
    They have essentially been able to stand up their preparedness 
activities in the last decade on the shoulders of Federal support.
    Simply put, reduced Homeland Security funding places our Nation at 
risk.
    It minimizes our capacity to mitigate, prepare, respond, and 
recover from hazard events, while simultaneously increasing our risk.
    If we are to continue to prepare for, respond to, and recover from 
evolving threats and disasters we will need sufficient resources to 
sustain and adapt our capabilities accordingly.
    In closing, I wish to extend my sincere thanks for affording me the 
opportunity to appear before you today.

    Mr. Payne. Thank you for your testimony.
    I now recognize Mr. Masters to summarize his statement for 
5 minutes.

  STATEMENT OF MICHAEL G. MASTERS, NATIONAL DIRECTOR AND CEO, 
                    SECURE COMMUNITY NETWORK

    Mr. Masters. Chairman Payne, Ranking Member King, 
distinguished Members of the committee, America's Jewish 
community is under attack. Thank you for taking action to stop 
it.
    I am Michael Masters, CEO and national director of the 
Secure Community Network, or SCN, and it is an honor to appear 
before you to participate in this hearing.
    To protect Jewish lives, we are counting on you, the 
Members of the subcommittee, to support the funding desperately 
needed to prevent further assaults and to train people on what 
to do in case of an attack. Without you, the faith-based 
community would be in greater danger.
    SCN is the official safety and security organization the 
Jewish community in North America. We work on behalf of the 
Jewish Federations of North America and the Conference of 
Presidents of Major American Jewish American Organizations, 
covering 50 national nonprofits, 146 Jewish federations, and 
over 300 independent communities, representing approximately 90 
percent of the Jewish population in North America.
    We are the Jewish community's official liaison with Federal 
law enforcement, particularly the FBI and DHS, and every day we 
are working to develop best-practice safety, security, and 
policies, undertake threat and vulnerability assessments, 
conduct life-saving training and exercises, and provide 
critical incident response.
    We have worked with Jewish organizations in each and every 
one of your home States. We were in Jersey City after the 
attack, supporting the Jewish Federation, and earlier this week 
provided training to the community in Monsey, New York.
    I have personally served in several law enforcement 
Homeland Security roles: A police officer training special 
weapons and tactics, and a commissioned officer in the United 
States Marine Corps. I previously served as the chief of staff 
of the Chicago Police Department and the director of the 
Department of Homeland Security in Cook County, Illinois.
    My job and that of my team is to secure our community so 
that the Jewish community can pray, celebrate, and gather in 
peace. We are not volunteers of private contractors. We are 
professionals dedicated specifically to the community.
    As a security expert informed by personal experience, I can 
tell you without equivocation that the Nonprofit Security Grant 
Program, or NSGP, has placed the nonprofit faith-based 
community in a better position to be safe and secure. That 
means that more Americans, regardless of faith, can worship and 
gather in peace. This is critical not just for the faith-based 
community but for the very preservation of religious freedom in 
this Nation.
    The threats facing the Jewish community are both complex 
and dynamic, and at their core they derive from an evil that is 
thousands of years old, anti-Semitism. The Jewish community not 
only remains the No. 1 target of religiously-motivated hate 
crimes but we have seen a rise in these events to near historic 
levels, as well as increases in anti-Semitic incidents across 
the Nation. As Ranking Member King pointed out, the ideology 
and motivators for the individuals behind these attacks range 
across the spectrum.
    Since the attack in Pittsburgh, law enforcement has 
disrupted over a dozen plots targeting the Jewish community 
around the country. The attack 2 weeks ago in Monsey, New York, 
where the Jewish community gathered to celebrate Hanukkah, was 
the 13th incident in New York in 3 weeks. The church shooting 
in Texas less than 18 hours later was the 14th deadly shooting 
at a house of worship in this Nation since June, 2015. These 
events are horrific reminders of why this hearing is so 
important.
    NSGP funding has made our communities more safe and secure. 
It has placed electronic locks on exterior doors of Jewish 
community centers, cameras on synagogues, and panic buttons in 
Jewish school classrooms. NSGP funding is now protecting more 
communities in more places. Recent changes allow organizations 
in nonurban areas to take advantage of the program. From the 
attacks in Overland Park, Kansas, and Sutherland Springs to 
Monsey, New York, and White Settlement, as the threat has 
changed, this has been an important and critical expansion.
    NSGP provides funding for training and saves lives. Today 
NSGP funds can now be used to support planning, exercising, and 
training for everyday congregants. For organizations that could 
not support such training prior, this can literally be the 
difference between life and death.
    Every day we work to build relationships between our 
community and law enforcement from State, local, and Federal 
and thanks to the good work of men and women like those to my 
left and right. The NSGP is a component of this, fostering 
critical cooperation and engagement.
    Chairman Payne, and Ranking Member King, I am deeply 
appreciative for your efforts to increase funds for this 
program. Last year with $60 million available, we understand 
that there was close to $170 million worth of requests. We are 
pleased that Congress increased the funding to $90 million this 
year to help bridge this divide. At the same time we intend to 
continue to work to make sure more organizations know about 
these funds and how to effectively apply and use them. We 
encourage increases to the program to meet the need.
    From attacks in Pittsburgh and Poway to Jersey City and 
Monsey, the Jewish way of life in the United States of America 
is under threat. In each of these attacks, SCN's team is 
responding. What is required is a whole community response. No 
one in this country should ever question whether it is safe to 
walk into a religious institution. And an attack on any 
religious institution, regardless of size, location, or 
affiliation, is an attack on all of us as Americans.
    The NSGP and related efforts have assisted in reducing the 
threat and providing peace of mind but there is much more work 
to do and, as recent events show, we do not have time to lose.
    Thank you for what you are doing for our community and for 
the country.
    [The prepared statement of Mr. Masters follows:]
                Prepared Statement of Michael G. Masters
                            09 January 2020
                                overview
    Chairman Payne, Ranking Member King, Distinguished Members of the 
committee: America's Jewish community is under attack. Thank you for 
taking action to stop it.
    I am Michael Masters, CEO and national director of the Secure 
Community Network, or SCN. It is an honor to appear before you to 
participate in this hearing. To protect Jewish lives, we are counting 
on you--the Members of this subcommittee--to support the funding 
desperately needed to prevent further assaults and to train people on 
what to do in case of an attack.
    Without you, the faith-based community would be in even greater 
danger.
    SCN is the official safety and security organization of the Jewish 
community in North America. We work on behalf of The Jewish Federations 
of North America and the Conference of Presidents of Major American 
Jewish Organizations, covering over 50 national non-profit 
organizations,\1\ 146 Jewish Federations, and over 300 independent 
Jewish communities,\2\ all representing over approximately 90 percent 
of the Jewish community across North America.
---------------------------------------------------------------------------
    \1\ ``Member Organizations,'' Conference of Presidents of Major 
American Jewish Organizations, accessed January 6, 2020, https://
www.conferenceofpresidents.org/about/members.
    \2\ ``About The Jewish Federations of North America,'' The Jewish 
Federations of North America, accessed January 6, 2020, https://
jewishfederations.org/about-jfna.
---------------------------------------------------------------------------
    We are the Jewish community's official liaison with Federal law 
enforcement, particularly the FBI and DHS. Every day, we work to 
develop best-practice safety policies, undertake threat and 
vulnerability assessments, conduct life-saving training and exercises, 
and provide critical incident response.
    We have worked with Jewish organizations in each and every one of 
your home States. We were in Jersey City after the attack and earlier 
this week provided training to the community in Monsey, New York.
    I have personally served in several law enforcement and homeland 
security roles: A police officer trained in special weapons and tactics 
and a commissioned officer in the United States Marine Corps, I 
previously served as the chief of staff of the Chicago Police 
Department and as the executive director of the department of homeland 
security for Cook County, Illinois.
    My job and that of my team is to secure our community so that the 
Jewish people can pray, celebrate, and gather in safety.
    We are not volunteers, or private contractors. We are security 
professionals whose full-time job is to serve the Jewish community.
    As a security expert and informed by my personal experience, I can 
state--without equivocation--that the NSGP has placed the non-profit, 
faith-based community in a better position to be safe and secure.
    This means that more Americans--regardless of faith--can worship 
and gather in peace.
    This is critical not just for the faith-based community but for the 
very preservation of religious freedom in this Nation.
                             threat picture
    The threats facing the Jewish community are both complex and 
dynamic. At their core, they derive from an evil that is thousands of 
years old: Anti-Semitism.
    The Jewish community not only remains the No. 1 target of 
religiously motivated hate crimes, but we have seen a rise in these 
events to near-historic levels, as well as increases in anti-Semitic 
incidents across the Nation.\3\
---------------------------------------------------------------------------
    \3\ ``Audit of Anti-Semitic Incidents: Year in Review 2018,'' The 
Anti-Defamation League, accessed January 6, 2020, https://www.adl.org/
audit2018.
---------------------------------------------------------------------------
    We have seen a troubling rise in domestic extremism, with the FBI 
pursuing over 850 domestic terrorism investigations at last count.\4\
---------------------------------------------------------------------------
    \4\ Adam Goldman, ``The FBI's New Approach to Combating Domestic 
Terrorism: Straight Talk,'' The New York Times, November 10, 2019, 
https://www.nytimes.com/2019/11/10/us/politics/domestic-terrorism-
justice-department.html.
---------------------------------------------------------------------------
    In this environment, the FBI, Department of Homeland Security and 
National Counterterrorism Center have jointly assessed that domestic 
hate groups will continue to pose a lethal threat to religious and 
cultural facilities at home, especially mass casualty attacks at large 
gatherings and soft targets, and will be difficult to detect before 
they act.
    Indeed, since the attack in Pittsburgh, law enforcement has 
disrupted over a dozen plots targeting the Jewish community, around the 
country.\5\
---------------------------------------------------------------------------
    \5\ Lesley Stahl, ``Recovering from the Deadliest Anti-Semitic 
Attack in U.S. History,'' CBS 60 Minutes, October 20, 2019, https://
www.cbsnews.com/news/tree-of-life-pittsburgh-synagogue-shooting-
deadliest-anti-semitic-attack-in-u-s-history-60-minutes-2019-10-20/.
---------------------------------------------------------------------------
    The attack 2 weeks ago in Monsey, New York, where the Jewish 
community gathered to celebrate Hanukkah, was the 13th incident in New 
York in 3 weeks.\6\
---------------------------------------------------------------------------
    \6\ Bobby Allyn and James Doubek, ``Governor Cuomo Calls New York 
Hanukkah Attack `Act of Domestic Terrorism','' NPR, December 29, 2019, 
https://www.npr.org/2019/12/29/792134545/5-stabbed-at-hanukkah-
celebration-in-new-york.
---------------------------------------------------------------------------
    The Church shooting in Texas less than 18 hours later was the 14th 
deadly shooting at a house of worship in this country since June 
2015.\7\
---------------------------------------------------------------------------
    \7\ Frank Miles, ``Texas Church Shooting is Latest of Many Attacks 
in US Houses of Worship in Recent Years,'' December 29, 2019, https://
www.foxnews.com/us/texas-church-shooting-attacks-houses-worship.
---------------------------------------------------------------------------
    These events are horrific reminders of why this hearing is so 
important.
    Moreover, we must protect these vital places . . . parts of who we 
are. We must work to ensure that they remain open and accessible while 
being safe and secure.
                         addressing the threats
    Sadly, safety and security has long had to be a focus for the 
Jewish community.
    To address these threats, SCN was created to work with and on 
behalf of the Jewish community. Every day, we work to create an 
empowered resilient community.
    In addition to the on-going and committed support that we receive 
from law enforcement at all levels--with special recognition to the FBI 
and our public safety partners at DHS--and thanks to the on-going 
support from Congress and from the administration for the NSGP as well 
as the intent behind it, we know that we do not face the challenges and 
threats directed at our community, alone.
         impact of the non-profit security grant program (nsgp)
    How and why is this funding critical?
    First, NSGP funding has made our community more safe and secure. It 
has placed electronic locks on exterior doors of Jewish community 
centers, cameras on synagogues and panic buttons in school classrooms.
    In the Yom Kippur attack on a synagogue in Halle, Germany, it was a 
simple door lock that kept dozens of worshippers--including a large 
group of Americans--safe.\8\
---------------------------------------------------------------------------
    \8\ Christopher F. Schuetze and Melissa Eddy, ``Only a Locked Door 
Stopped a Massacre at a German Synagogue,'' The New York Times, last 
updated October 21, 2019, https://www.nytimes.com/2019/10/10/world/
europe/germany-synagogue-attack.html.
---------------------------------------------------------------------------
    Each week, we work with communities and law enforcement around the 
country: Dealing with suspicious individuals attempting to gain access 
to our facilities, vandals defacing our houses of worship with symbols 
of hate, bomb threats to our community centers.
    In each of these cases, equipment similar to that which is made 
possible by the NSGP protects our community.
    Second, NSGP funding is now protecting more communities in more 
places. Recent changes allow organizations in non-Urban Areas to take 
advantage of the program. From attacks in Overland Park, Kansas and 
Sutherland Springs to Monsey, New York and White Settlement, Texas, as 
the threat has changed, this has been an important expansion.
    Third, NSGP funding provides training that saves lives. Through our 
Critical Infrastructure Program, SCN regularly provides security 
assessments to organizations. We often identify required physical 
security enhancements. That said, physical security solutions are only 
one part of a security strategy. We know by experience, and have 
validating survivor testimony from both Pittsburgh and Poway, that 
training can save lives.
    Today, NSGP funds can now be used to support planning, exercises, 
and training for everyday citizens. For organizations that could not 
support such training prior, this can, literally, be the difference 
between life and death.
    Fourth, every day, we are working to build relationships between 
our community and law enforcement. The NSGP is a component of this, 
fostering critical cooperation and engagement.
    Last, and importantly, Chairman Payne and Ranking Member King, I am 
deeply appreciative of your efforts to increases funds for this 
program. Last year, with $60 million available, we understand that 
there was close to $170 million worth of requests. We are pleased that 
Congress increased the funding to $90 million this year to help bridge 
this divide. At the same time, we intend to continue to work to make 
sure more organizations know about these funds, and how to effectively 
apply and use them. We encourage increases to the program to meet the 
need.
                                closing
    From attacks in Pittsburgh and Poway to Jersey City and Monsey, the 
Jewish way of life in the United States of America is under attack.
    In each of these attacks, SCN's team was responding. What is 
required is a whole community response. An attack on any religious 
institution in this country--regardless of size, location, or 
affiliation--is an attack on all of us.
    No one in this country should ever question whether it is safe to 
walk into a religious institution, regardless of affiliation, location, 
or size.
    The NSGP and related efforts have assisted in reducing the threat, 
and providing peace of mind. But there is much more work to do . . . 
and we do not have time to lose.
    Thank you for what you are doing. I am happy to take your 
questions.

    Mr. Payne. Thank you for your testimony. I now recognize 
Mr. Miller to summarize his statement for 5 minutes.

STATEMENT OF JOHN J. MILLER, DEPUTY COMMISSIONER, INTELLIGENCE 
     AND COUNTERTERRORISM, NEW YORK CITY POLICE DEPARTMENT

    Mr. Miller. Good morning and thank you, Chairman Payne and 
Ranking Member King and Members of the committee. We appreciate 
the opportunity to be here to testify before this committee and 
to sit with our partners and colleagues like Michael and Greg 
who are valuable partners and incredibly important in this 
effort.
    I am John Miller, just for the record, deputy commissioner 
of intelligence and counterterrorism for the New York City 
Police Department. On behalf of Police Commissioner Dermot Shea 
and Mayor Bill de Blasio, I am pleased to testify before your 
subcommittee today to discuss the NYPD's counterterrorism and 
emergency management efforts and the essential role that our 
Federal partnership and DHS grant funding plays in the NYPD's 
efforts to secure New York City.
    I want to be clear from the outset. I know that I and other 
executives of the NYPD charged with keeping the city safe have 
made this point before here and we will likely make it again 
but our ability to prevent or be adequately prepared in the 
event that we do not prevent a catastrophic event is dependent 
in no small part on our successful collaboration with our 
Federal partners and the funding of the Federal Government that 
is provided to our city.
    Funding that, if eliminated, if reduced, or, frankly, not 
increased, will result in an erosion of our counterterror and 
intelligence capabilities, cessation of many of the initiatives 
that I will talk about today, and a significant limitation of 
our overall emergency preparedness posture.
    Although New York City enjoys the status of being the 
safest large city in the Nation, we also remain the primary 
target for violent extremists, both foreign, home-grown, as 
well as State-sponsored terror networks seeking to use New York 
City as a pawn in their global terror campaigns.
    That is not speculation. It is the consensus of the global 
intelligence community, and it is backed up by empirical data. 
It is vividly apparent to the entire Nation in light of our 
military's recent action again Qassem Soleimani. Unlike any 
other city, New York City was required to undertake an immense 
response to secure itself based on the action our country took 
in its own defense.
    Now that is nothing new. In fact, these nefarious 
organizations and networks are in a perpetual state of planning 
to identify targets and vulnerabilities in New York City, 
particularly in the event their handlers determine attacking 
our homeland is in their strategic interest.
    Consequently the NYPD is in a perpetual state of alert to 
identify and neutralize not only those seeking to attack our 
city but also terrorist scouts that aim to feed intelligence 
about our city to their managers.
    Three such cases come to mind. In 2017 and 2019, sleeper 
agents working for the terrorist organization Hezbollah were 
arrested and charged with scouting in New York City, all 3 
arrested by the FBI-NYPD Joint Terrorism Task Force. In each of 
those cases among the 120 New York City detectives assigned to 
the JTTF, they were integral parts of those investigations. All 
3 were arrested, and in the most recent case, Alexei Saab was 
arrested only this past July.
    One of these suspects looked at Government targets in New 
York City. One of these suspects looked at critical 
infrastructure in the United States from Lake Michigan all the 
way down to the Panama Canal to help with plans to disrupt the 
global economy. Another looked at tourist locations and 
landmarks. Obviously, considering that Hezbollah is a 
designated foreign terrorist organization of some degree of 
sophistication, that is very concerning.
    Since September 11, there have been more than 30 terrorist 
plots emanating from or against New York City with targets such 
as Time Square, the Brooklyn Bridge, JFK airport, the New York 
City Stock Exchange, the subway system, as well as major 
synagogues and many other sites.
    In most cases these plots have been thwarted by the efforts 
of the NYPD and the FBI Joint Terrorism Task Force with our 
team there, using traditional law enforcement techniques, as 
well as cutting-edge crime fighting and counterterrorism 
technology.
    Since June alone we have uncovered and stopped 4 plots at 
various stages. Last month in Brooklyn a man, who was 
radicalized on-line, was arrested after pledging allegiance to 
ISIS and was in the active encrypted pro-ISIS chat room, 
posting bomb-making instructions and called for attacks in New 
York City.
    In September, a Hezbollah operative referenced before, 
Alexei Saab, was arrested, living in New Jersey, charged with 
terrorism-related crimes, after having conducted extensive 
surveillance on potential bombing and attack targets in the 
city such as the United Nations, the Statute of Liberty, Time 
Square, our airports, and bridges. Specifically he scouted 
these locations for structural weaknesses so as to inflict 
maximum damage and chaos.
    In August, a Queens man, Awais Chudhary, was charged with 
attempting to provide material support for ISIS, after having 
planned a knife attack on the World's Fair marina park next to 
the U.S. Open of Flushing, Queens. He had gone so far as to 
purchase a tactical knife, a mask, as well as gear to hold his 
camera so he could film the attack and post it as ISIS 
propaganda.
    In June, a different Queens man was arrested for obtaining 
two handguns with obliterated serial numbers to be untraceable 
so as to carry out an attack on the red steps in Time Square, 
shooting tourists and New Yorkers as they sat there.
    Tragically in recent years, aside from all the attacks we 
have prevented with our Federal partners and using this Federal 
funding, we have had 4 attacks that have succeeded in striking 
our city: An explosion in Chelsea, a white supremacist who 
murdered an African American man with a sword as part of a 
practice run for a larger racist plot of murders, a terrorist 
who drove a truck into the West Side Highway running path, 
killing 8 people after running over 12, an ISIS-inspired 
suicide bomber who set off a homemade suicide bomb in the Port 
Authority Bus Terminal subway beneath the terminal, injuring 3 
individuals and himself, only because of technical errors he 
made in constructing that device.
    Freshest in our minds obviously is the rash of anti-Semitic 
violence that has taken place in and around New York City and 
the increasing trend of violent bias crimes of all types we 
have seen Nation-wide.
    Last month the NYPD Intelligence Bureau formed a new unit, 
R.E.M.E., or the Racially and Ethnically Motivated Extremism 
Unit, which operates as a quasi task force consisting of 25 
NYPD personnel detectives, intelligence analysts working side-
by-side with members of the New York State police, the Bureau 
of Alcohol, Tobacco, and Firearms, and in cooperation with the 
FBI. R.E.M.E. is specifically dedicated to investigating and 
stamping out violence bias crimes in and around the city before 
they occur. In under a month since its formation, the unit has 
opened a dozen investigations into hate-related groups plotting 
or planning crimes in and around the New York area.
    Mr. Payne. If you could wrap it up, please.
    Mr. Miller. Excuse me, sir?
    Ms. Payne. Could you just wrap it up.
    Mr. Miller. OK. In our counterterrorism and emergency 
preparedness posture broadly, we should not merely imply a 
reactive posture. We can't operate, have not operated, and will 
not operate from a position that accepts there is nothing we 
can do to prevent and attack and instead should merely prepare 
to respond for the inevitability of it happening.
    Our Intelligence Bureau entire mission to undercover plots 
before they become realized and before people get hurt or 
killed, that is our mission as we see it.
    Now to get to the core issue here, the NYPD relies heavily 
on Federal funding to strengthen our counterterrorism 
intelligence and emergency preparedness capabilities including 
the security of critical transportation, port infrastructure, 
and other critical infrastructure. The department has received 
$1.9 billion in counterterrorism funds via the Federal grants 
since 2002, funding that began after 9/11.
    While in recent years the funding has remained relatively 
stable year to year, the city received $26 million less in 2018 
than it did in 2018. So we have seen the funding begin to 
decline.
    Mr. Payne. You are going to have to end. We are going to 
have to cut you off. We are going far over the----
    Mr. Rose. Sir, sir, on behalf of New York City, can I cede 
my 5 minutes and give Mr. Miller the opportunity to finish his 
testimony? I won't ask any questions.
    Mr. Miller. Mr. Chairman, I--and I appreciate that, 
Congressman Rose.
    But I am happy to include the rest of this information in 
the answers to your questions.
    [The prepared statement of Mr. Miller follows:]
                  Prepared Statement of John J. Miller
                            January 9, 2020
    Good morning Chair Payne, Ranking Member King, and Members of the 
subcommittee. I am John Miller, deputy commissioner of intelligence and 
counterterrorism for the New York City Police Department (NYPD). On 
behalf of Police Commissioner Dermot Shea and Mayor Bill de Blasio, I 
am pleased to testify before your subcommittee today to discuss the 
NYPD's counterterrorism and emergency management efforts and the 
essential role our Federal partnerships and DHS grant funding plays in 
the NYPD's efforts to secure New York City.
    I want to be clear from the outset, and I know that myself and 
other executives within the NYPD charged with keeping the city safe 
have made this point before, our ability to prevent or be adequately 
prepared for catastrophic events is dependent in no small part on our 
successful collaboration with our Federal partners and the funding 
which the Federal Government provides our city. Funding that, if 
eliminated, reduced, or frankly not increased, will result in an 
erosion of our counterterror and intelligence capabilities, cessation 
of many of the initiatives that I will talk about today, and a 
significant limitation of our overall emergency preparedness posture.
    Although New York City enjoys the status of being the safest large 
city in the Nation, we also remain the primary target for violent 
extremists, both foreign and home-grown, as well as state-sponsored 
terror networks seeking to use New York City as a pawn in their global 
terror campaign. That is not speculation--it is the consensus of the 
global intelligence community and vividly apparent to the entire Nation 
in light of our military's recent action against Qassem Soleimani. 
Unlike any other city, New York City was required to undertake an 
immense response to secure itself based on action our country took in 
its own defense. That is nothing new. In fact, these nefarious 
organizations and networks are in a perpetual state of planning to 
identify targets and vulnerabilities in New York City particularly, in 
the event their handlers determine attacking our homeland is in their 
strategic interests. Consequently, the NYPD is in a perpetual state of 
alert to identify and neutralize not only those seeking to attack our 
city, but also terrorist scouts that aim to feed intelligence about our 
city to their terrorist managers. Three such cases come to mind. All 3 
sleeper agents working for Hezbollah and scouting New York City. All 3 
arrested by the NYPD and its Federal partners since 2017. The most 
recent, Alexei Saab, arrested this past July.
    Since September 11, 2001, there have been more than 30 terrorist 
plots against New York City, with targets such as Times Square, the 
Brooklyn Bridge, John F. Kennedy Airport, the New York Stock Exchange, 
the subway system as well as major synagogues and other sites. In most 
cases, they have been thwarted by the efforts of the NYPD and the FBI-
NYPD Joint Terrorist Task Force utilizing traditional law enforcement 
techniques, as well as cutting-edge crime fighting and counterterror 
technology.
    Since June alone we have uncovered and stopped 4 plots in various 
stages. Last month a Brooklyn man who was radicalized on-line was 
arrested, he pledged allegiance to ISIS, and was active in encrypted 
pro-ISIS chatrooms, posting bomb-making instructions and calling for 
attacks. In September, a Hezbollah operative living in New Jersey was 
charged with terrorism-related crimes after having conducted extensive 
surveillance on potential bombing targets in the city, such as the 
United Nations, the Statue of Liberty, Times Square, and our airports 
and bridges. He specifically scouted these locations for structural 
weaknesses so as to inflict maximum damage and chaos. In August, a 
Queens man was charged with attempting to provide material support for 
ISIS after having planned a knife attack on the U.S. Open in Flushing. 
He had gone so far as to purchase a tactical knife and a mask, as well 
as gear to film his attack. In June, a different Queens man was 
arrested after obtaining 2 handguns with obliterated serial numbers to 
carry out an attack on Times Square where he planned to target and kill 
civilians and police.
    Tragically, in recent years 4 attacks have succeeded in striking 
our city; an explosion in Chelsea; a white supremacist who murdered an 
African-American man with a sword as a ``practice run'' to a larger 
plot; a terrorist who drove a truck into the West Side Highway Running 
Path which killed 8 people; and an ISIS-inspired suicide bomber who set 
off a home-made explosive device at the Port Authority Bus Terminal 
subway station that injured 3 individuals and himself.
    Freshest in our minds, of course, is the rash of anti-Semitic 
violence that has taken place in and around New York City, as well as 
the increasing trend of violent bias crimes of all types we have seen 
Nation-wide. Last month we formed a new unit within the Intelligence 
Bureau, the Racially and Ethnically Motivated Extremism (REME) unit, 
which operates as a quasi-task force consisting of about 25 NYPD 
personnel working side-by-side with members of the New Jersey, New 
York, and Pennsylvania State police and agents from Federal Bureau of 
Alcohol, Tobacco, Firearms, and Explosives. REME is specifically 
dedicated to investigating and stamping out violent bias crimes in and 
around the city before they occur and in under a month the unit has 
opened dozens of investigations. It is the proactive counterpart to our 
Hate Crimes Unit, which investigates bias crimes after they occur.
    Counterterrorism, and emergency preparedness broadly, should not 
merely imply a reactive posture. We cannot operate, and have not 
operated, from a position that accepts there is nothing we can do to 
prevent an attack and instead should merely prepare for the 
inevitability of it happening and how we should respond. Our 
Intelligence Bureau's entire mission is to uncover plots before they 
become realized and people are hurt or killed.
    The NYPD heavily relies on Federal funding to strengthen our 
counterterrorism, intelligence, and emergency preparedness 
capabilities, including the security of critical transportation and 
port infrastructure. The Department has received $1.9 billion in 
counterterrorism funds via Federal grants since 2002. While in recent 
years the funding has remained relatively steady year-to-year, the city 
received $26 million less in fiscal year 2018 than in fiscal year 2008.
    The most valuable asset we have in the fight against violent 
extremists is our highly trained and dedicated personnel. This funding 
has helped staff our Counterterrorism and Intelligence Bureaus, funds 
our Critical Response Command (CRC), our first line of defense against 
any natural or man-made disaster, funds our Counter Terrorism Officer 
(CTO) program, funds increased strategic counterterrorism deployments 
in the transit system and at our ports, and has enabled the Department 
to train our entire patrol force in counterterrorism and emergency 
response techniques when responding to explosive, chemical, biological, 
and radiological incidents, as well as training to respond to active-
shooter incidents so they can engage and end coordinated terrorist 
attacks. This vital funding also provides critical instruction to 
officers in life-saving techniques that can be implemented during an 
on-going attack, in the effort to save lives before it is safe enough 
for medical personnel to enter an unfolding event.
    The grant funding has been no less instrumental in building a 
cutting-edge technological infrastructure to support the efforts of our 
personnel. It allows the Department to purchase and install chemical 
and radiation sensors in and around New York City, to train and deploy 
chemical and explosive detecting ``vapor wake'' dogs, and to install 
hundreds of license plate readers throughout the city. The very same 
plate readers that were instrumental in locating and capturing the 
perpetrator of the Hanukkah slaughter in Monsey, New York. Key to all 
of this is our Federally-funded Domain Awareness System (DAS), which 
receives data from those chemical and radiological sensors I mentioned, 
as well as the ShotSpotter sensors, information from 9-1-1 calls, and 
live feeds from CCTV cameras around the city, and its advanced 
interface and mapping capability enables us to monitor emerging 
conditions and threats and to target our response in the wake of a 
large-scale event.
    The NYPD's counterterrorism capabilities are unmatched among 
municipal police forces, as they must necessarily be, but we can do 
better. Our ability to adapt and innovate is directly tied to a 
continuing and increased level of Federal funding. Even as the years 
between 9/11 and the present day grow, the threat has not diminished. 
One day in the future, when New York City is no longer under constant 
threat, I hope and pray that we can have a conversation about how 
better to use our resources, but that time is not today. We cannot 
afford to become complacent.
    Thank you again for this opportunity to testify today. I am happy 
to answer any questions you may have.

    Mr. King. I was impressed with even Max Rose willing to 
give up his time so we wouldn't have to listen to him.
    Mr. Payne. Well, actually the 5 minutes is up. So he just 
used your time.
    Mr. King. There we go.
    Mr. Payne. We will now go to questions, and I will start 
the round.
    Mr. Kierce, Mr. Sprayberry, in fiscal year 2019 Jersey 
City/Newark UASI jurisdiction, funding was cut by $2.7 million 
and Charlotte UASI jurisdiction was not funded at all in fiscal 
year 2019. How would the cuts in UASI funding impact emergency 
preparedness in your respective jurisdictions?
    Mr. Sprayberry. So, as you know, Charlotte is our--was our 
UASI and, that being cut, they are not going to be able--they 
had a cybersecurity initiative that was under way. That won't 
be funded. They were in the process of purchasing 
communications equipment. That won't be funded.
    They were in the process of buying antiterrorism law 
enforcement equipment. They won't be able to purchase that. 
They had some exercises that were planned, active-shooter 
exercises, cybersecurity exercises. They won't be able to do 
that.
    At communications training week, one of the things that we 
know from every exercise or every event that we have ever had, 
communications is a huge issue. So we like to concentrate on 
bettering our communications.
    So the Charlotte UASI has also been ready to deploy assets, 
not just within the UASI region but State-wide and Nation-wide 
with the assets they have built.
    I just want to reemphasize that they are the home of the 
2020 Republican National Convention for us, and we continue to 
grow. We are the ninth-largest State in the Nation. So it is 
having a significant effect. Thank you, sir.
    Mr. Payne. That concerns me a great deal that the 
Republican convention is there and that is a--they are a very 
high-risk event and that does not bode well.
    Mr. Kierce.
    Mr. Kierce. Chairman Payne, I think one of the biggest 
issues we are dealing with, I am on the executive board of the 
Jersey City/Newark UASI. We met on Monday and these discussions 
included training is a key to being able to combat this 
domestic terrorism that we are all facing now.
    The issues that we see is that with retirement's younger 
officers coming into play, failure to adequately supply them 
with the training and the funding necessary for the equipment 
is critical.
    The incident that we discussed earlier in Jersey City and, 
as my colleague, John, had mentioned, the incident at Monsey 
only shows you how critical indeed it is here.
    We are all seriously looking to make serious cuts which I 
think would undermine our preparedness levels and leave not 
only our UASI regions but the whole country vulnerable.
    Mr. Payne. Thank you.
    Last week's killing of the top Iranian general by U.S. 
forces promoted the Iranian propaganda and the government to 
promise revenge. In 2017, New York's computer system was hacked 
by two Iranians who kept the system shut down until a $30,000 
ransom was paid. It is possible that Iran could execute similar 
cyber attacks against the United States.
    What investments have your jurisdictions made in 
cybersecurity using DHS grant funding?
    Mr. Miller.
    Mr. Miller. We have set up a critical infrastructure 
committee, as it were, bringing together power, water, banking 
sectors, cellular communications, all of the systems that are 
required to work if our response in an emergency preparedness 
or terrorism situation is to succeed and started to exchange 
information with them about known signatures, IP addresses, 
specific malware to make sure that the simple fact that a piece 
of critical infrastructure is not being maintained to the 
highest level is not going to be the vulnerability that is 
going to cause systemic failure.
    Our cyber efforts, our cyber analysts, our director of 
cyber intelligence operations, people integral to this process, 
the people who built this process are all paid for by DHS, 
Homeland Security, and cyber grants.
    Mr. Payne. OK. Thank you.
    Mr. Kierce.
    Mr. Kierce. Pretty much echoing what John says, we, too, 
were--during the time when Newark was impacted, they tried to 
impact our communication system. We have taken measures, there 
again funded through UASI, to put measures in place that 
prevented that. There again, if, you know, things are on a 
cutting block, I think you have to take a realistic look at 
everything that we are paying for and obviously put the money 
toward preparedness and training and equipment. Possibility 
something like that could fall by the wayside. I don't think 
that the cities and the States really have the capabilities or 
the funding to do so without the support of the Federal 
partners.
    Mr. Payne. OK. Thank you.
    I will try to constrain my time.
    I will now recognize the gentleman from New York, Mr. King.
    Mr. King. I thank you, Mr. Chairman.
    Mr. Miller, if I could just focus for a moment on Iran and 
Hezbollah, obviously the killing of Soleimani has raised that 
to a different level. As you said in your testimony, this goes 
back many years, the attempt by Iranian sleepers to penetrate 
New York.
    How confident are you that you have surveillance and 
knowledge of the main operatives for Iran and/or Hezbollah in 
New York City or the New York City metropolitan area?
    Mr. Miller. I think between the NYPD's Intelligence Bureau 
and the FBI's Joint Terrorism Task Force, as well as elements 
of their counterintelligence squads in New York, we have 
developed a much better picture of the Iranian network on the 
ground in the United States and in New York in particular, with 
the recent arrests, identifying, if Qassem Soleimani pressed 
the red button on his desk and said events have changed to the 
point that we need to attack on U.S. soil, who would be on the 
other end of that button? So I think that is a giant step 
forward.
    But I harbor no illusions, Congressman King, that with our 
ability to break up that network of sleeper agents collecting 
target intelligence that the government of Iran, its Quds 
Force, its IRGC, the machine built by Qassem Soleimani, or 
Hezbollah itself as a critical key surrogate would not seek to, 
has not sought to rebuild that network in New York and other 
cities.
    Mr. King. I think for the purposes of this hearing, the 
Federal funding you get is essential to this type of 
monitoring, right?
    Mr. Miller. It is. Our counterterrorism program is built on 
that Federal funding, and I would make the larger point for my 
colleagues at the table. If there was any illusion that, while 
New York is in the bull's-eye of that target, that somehow that 
kind of terrorism would not visit Jersey City to our west or 
Monsey to our north in Rockland County or what we have seen 
with extremism in Charlotte, whether it is things that we don't 
technically call terrorism but attacks by people like Dylann 
Roof in a church, in a racist attack, or the ramming attack by 
a car at a protest.
    We need to be looking at this in the broadest sense which 
is our interest is obviously New York City, and our position as 
a target, but our largest interest is that the Homeland 
Security Grant pie does not shrink because this is a National 
problem that we are learning turns up in places across the 
country.
    New York depends on those places as well. Many of the plots 
that targeted New York emanated from outside. We need our 
partners to be as strong as we are.
    Mr. King. Thank you.
    On the issue of anti-Semitism, I guess this is both Mr. 
Miller and Mr. Masters, if anybody else wants to join in, it 
was felt all along, rightly so, that the main threats usually 
come from white nationalism. None of the recent attacks in New 
York and New Jersey came from white nationalists.
    I guess the point I am making is: Are you looking into 
whether or not this is multifaceted, why there is this increase 
from so many different quarters? I mean, anti-Semitism was for 
the most part it was latent, it was there, but never to the 
extent that it seems to be coming.
    It seems to be coming from so many different quarters right 
now. Is it social media? Are there any reasons you can focus on 
as to what could be causing it and what steps would law 
enforcement be taking to see of the entire areas from which 
this type of anti-Semitism can come?
    Mr. Masters. Thank you, sir.
    So first I would point out that we have seen rises in anti-
Semitism across the country. Certainly the events of the last 3 
weeks, 4 weeks in New York are of great concern and we have 
value of the dollars, the value not just of the Nonprofit 
Security Grant Program but the larger DHS preparedness grants 
which creates connectivity with law enforcement.
    It also creates connectivity and information sharing 
between law enforcement and the faith-based community so that 
we know that when we have issues in New York City that there is 
direct reaction and proaction from the NYPD and our State and 
local and Federal partners similarly across the river in New 
Jersey and around the country.
    To the substance of the question, the rise, as I pointed 
out, is across the country and it is from, as you made the 
statement, Ranking Member King, in your opening remarks, from a 
myriad of ideologies and motivators.
    As my colleague, Mr. Kierce, pointed out, the largest 
number of extremist attacks in this country where someone was 
killed that had been undertaken since September 11, 2001, were 
perpetuated by those affiliated with white supremacists or neo-
Nazi ideology.
    The last several weeks, though, demonstrates the complex 
and dynamic threat environment we are in which for the Jewish 
community means that we need to be prepared for that threat. We 
need to be prepared for the Islamist extremist threat.
    One of the cases that Deputy Commissioner Miller mentioned 
related to two Iranian nationals that were observed--well, in 
the criminal complaint noted they had been surveilling a Hillel 
organization on a college campus, which is a Jewish 
organization, at the University of Chicago, as well as a Chabad 
house in the city of Chicago as well.
    So we see foreign state, non-state actors, their proxies. 
Unfortunately, anti-Semitism is nearly as old as the faith and 
that is a reality that we have to deal with and we have to 
prepare in a whole community manner and that is what we are 
working to do.
    Mr. King. Thank you.
    Mr. Payne, if I will, you mentioned about--somebody 
mentioned about the closeness of New York and New Jersey. I 
would say Mr. Payne's district is closer to New York City than 
most of the New York Congressional districts are to New York 
City. So we are stuck in this, Don.
    Mr. Payne. Absolutely.
    I recognize the gentleman from New York, Mr. Rose.
    Mr. Rose. Thank you, sir, for being generous after I fell 
on my sword for Mr. Miller.
    Mr. Miller, thank you for being here and thank you for your 
service to New York and the country.
    Twenty-six million-dollar difference between what New York 
City received in 2008 and 2018, adjusted for inflation. If it 
had kept on going, New York City would have more than $30 
million right now for additional counterterrorism associated 
spending.
    So my question for you is two-fold. No. 1, under your 
understanding who makes the decision to allocate money to New 
York City? That is a simple question. No. 2, what would you do 
with that additional money?
    Mr. Miller. We have the advantage of being a $5.6 billion 
organization, but I would underscore, like many other 
Government agencies, 85 percent of that cost is personnel. That 
is 50,000 people that work for the NYPD. That means that 
smaller percentage when it comes to crime fighting. There is a 
reason we are the safest big city in America is what is left 
for the rest of that investment. That is cars, technologies, 
and so on.
    I think it is notable that when you--you take the theory of 
this funding which is, after 9/11 there were big numbers 
because things had to be built out, and the assumption would 
that be those numbers would get smaller because most of the 
things have been bought and now it is just an issue of 
maintaining them.
    But when it comes to technology, it becomes outmoded. When 
it comes to vehicles, they need to be replaced. When it comes 
to a major capital project like the domain awareness system 
which started out with 8,000 cameras and that much fiber, is 
now up to in excess of 20,000 cameras, that makes New York that 
much safer, that many more license plate readers, that many 
more data streams that share information with that system and 
rack and stack it to an inquiry that gives us decision 
advantage in a crisis.
    As that system grows, it doesn't get less expensive. It 
gets more expensive and the operation and maintenance for a 
system like that can be in excess of $50 million a year when 
you consider the cameras, the fiber, the staffing, and so on.
    So I think if you combine the idea that as our capability 
grow, they cost more.
    Mr. Rose. Sure.
    Mr. Miller. I think if you add to that, that the threat is 
not shrinking, the threat is more complex and more dangerous 
than it was 20 years ago. The threat has also not narrowed. It 
has widened.
    As my colleague just pointed out, we now have white 
supremacist groups, neo-Nazi groups, Black Hebrew Israelites, 
Moorish Sovereigns----
    Mr. Rose. To point on those----
    Mr. Miller [continuing]. In----
    Mr. Rose [continuing]. On those, I would just like to 
quickly get your opinion, Mr. Masters' opinion, ways we can 
help you beyond financing: No. 1, domestic terrorism charge; 
No. 2, designation of global neo-Nazi organizations as foreign 
terrorist organizations. How, in the absence of this Federal 
action, how are your actions constrained and hindered?
    Mr. Miller. Right now if one of our subjects or suspects 
sends blankets and boots to the Taliban or to ISIS in aid of 
their fighters, as a designated foreign terrorist organization, 
they are facing up to 15 or 20 years in prison for material 
support.
    On the other hand, someone who gives material support to a 
domestic terrorism group like the Atomwaffen division or a 
violent neo-Nazi organization, white supremacist group, 
sovereign citizen group, you name it, is not facing the same 
sanctions, the same penalties, the same ability for law 
enforcement.
    The domestic terrorism statutes on the Federal side are 
laden with requirements that it needs to involve either a 
foreign designated group, which doesn't apply to domestic, that 
it needs to involve weapons of mass destruction, which doesn't 
apply to an active-shooter plot.
    We need to decide on the Federal legislative level whether 
we are going to draft laws that call a terrorist is a terrorist 
is a terrorist and they don't have to be from outside of this 
country----
    Mr. Rose. What about the FTO list to expand to neo-Nazis?
    Mr. Miller. I will cede to Mr. Masters, but I think it fits 
in the same bucket.
    Mr. Masters. So I concur with Mr. Miller's assessment and 
agree entirely. Thank you for promoting this issue, 
Congressman.
    We have seen from our perspective the connectivity between 
white supremacists and neo-Nazi movements domestically and 
overseas, whether the individuals are fighting or going to 
fight in Ukraine as foreign terrorist fighters or they are 
communicating with other organizations overseas. I think that 
underlying behavior is what is critical in recognizing why the 
designation is important.
    When we see attacks, whether an individual is in Norway, 
attacking a camp on Utoya Island, or an Atomwaffen member from 
California, undertacking--attacking a community or across the 
United States and they are looking at the manifestos, they are 
mirroring the manifestos in language, in substance, in style, 
and you see that replicated in the Christchurch attacks and 
others in New Zealand, there is global connectivity to these 
movements.
    The branches of the tree have spread out which means that 
we, as Americans, as a faith-based community are under attack 
not by an individual but by an ideology and a movement and the 
tools that we need in the arsenal, as you had promoted, 
Congressman, allow law enforcement to protect the country and 
allow our community to be safe and secure.
    Mr. Rose. Thank you very much.
    This for the record, and I will close out, that this is 
what al-Qaeda looked liked in the 1980's and the early 1990's, 
and it is 100 percent our responsibility to act with the 
domestic terrorism charge and with an FTO designation.
    Mr. Payne. Thank you.
    I now recognize the gentleman from North Carolina, Mr. 
Bishop.
    Mr. Bishop. Thank you, Mr. Chairman.
    As a brand-new member elected in September, right after the 
announcement by Homeland Security of the UASI grants in which 
my hometown, Charlotte, was omitted, I sit here today with some 
information before me, and I am not sure who to direct the 
question to, but maybe to Mr. Sprayberry.
    Thank you for being here, sir. Thank you for what you do 
for North Carolina. The paper that I am looking at in front of 
me indicates that, since 2017, UASI funding has increased from 
$605 million to $665 million. Some increase in each one of 
those years.
    I understand that--I am trying to discern what the policy 
direction is that leads to the allocation methodology that 
results in Charlotte's grant being eliminated. I see that--so 
none of that money goes to the 16th largest city in America. It 
appears to me, according to information my staff gathered, that 
20 of the 31 cities that received funding were smaller than 
Charlotte. So if I am trying to intuit that there may be a 
focus on bigger cities, I can't discern that from that.
    Can you explain to me the risk assessment methodology 
reform that leads to this? Is it an objective or a subjective 
methodology that leads to these decisions?
    Mr. Sprayberry. We think it is bit of both, sir. We know 
that Congress expressed their intent to have the Secretary of 
the Department of Homeland Security to fund up to 85 percent of 
Nation-wide risk in the UASI program. It was our understanding, 
based on the risk assessment for last year, that we hit 85 
percent and maybe a couple of decimal points more. But 
subjectively, when it was briefed to the DHS Secretary, the 
recommendation was that Charlotte would not be funded.
    We had DHS come down and brief us in Charlotte to try to 
become more informed. We included the folks from Charlotte, as 
well as from the State, and had a pretty large meeting. We 
wanted to ascertain just how they reached that decision and, 
frankly, we couldn't--we couldn't. We are still waiting on some 
data to be provided by DHS. We feel like these decisions are 
not transparent and are not done in close partnership with the 
State. We need to have a good understanding of just what the 
data is that they are using to inform their decision making.
    Mr. Bishop. Following that up, and we don't have a 
Department witness here for me to ask. Again, I am new. I 
probably could ask the Chairman or the Ranking Member and they 
could probably illuminate, but I will do that off-line. As long 
as you are here, Mr. Sprayberry, do you have any insight that--
I mean, as was pointed out by the Chairman, we have the RNC 
convention in Charlotte this year, which seems like not the 
year to eliminate funding for this. But is there some sort of a 
substitutional thing going on, the notion that the funding, 
which is substantial, I think, for the event, that somehow 
substitutes or that makes it less, the lower priority to fund 
these things through the UASI grant?
    Mr. Sprayberry. So we were told that the 2020 RNC was not a 
factor for their decision. Again, we were told that when the 
briefing--we were on the line--and when the briefing was made 
to the Secretary, they made a recommendation that the Charlotte 
UASI be dropped, and she concurred with it.
    Mr. Bishop. Well, and I would have to just say and comment 
on this, that I cannot intuit the reasoning behind this 
decision. Smaller cities receive funding, Charlotte doesn't. 
Charlotte has a major event that you might think would 
substitute, but that is not the reason. It is inexplicable to 
me.
    In the less than a minute you have remaining, you made 
reference to Charlotte--or to North Carolina not having 
received its CDBG-DR allocation, $168 million for Florence from 
2018. Can you speak to that briefly in the seconds we have 
left?
    Mr. Sprayberry. Thank you, sir. So it is actually more like 
$300 million dollars for Florence, and we haven't received our 
allocation from HUD. I would tell you that, not only have we 
not received it, we haven't received the Federal Register for 
that. So we can't actually get the money into our coffers so 
that we can begin to help disaster victims until that money--
until the Federal Register is printed, and then we know how we 
can execute what they call a State action plan. Then once the 
State action plan is completed, it gets approved by HUD, and 
then we get the approval to begin to spend money.
    So I would tell you, you have thousands of disaster 
survivors from Hurricane Florence that are still waiting on 
that funding to be dropped into North Carolina's coffers so 
that we can execute the funding.
    Mr. Bishop. Thank you, Mr. Sprayberry.
    My time having expired, Mr. Chairman, I yield back.
    Mr. Payne. Thank you, sir.
    I now recognize the gentlelady from New York, Ms. Clarke.
    Ms. Clarke. Thank you, Mr. Chairman. I thank our Ranking 
Member, Mr. King, for this very important hearing.
    I wish this topic of today's hearing wasn't so timely, but 
sadly it is. Across our Nation, threat levels are increasing, 
white nationalist domestic terrorism is on the rise, global 
terrorism remains a real threat. In light of President Trump's 
reckless strike in Iraq, we may even need to worry about cyber 
attacks or other retaliation from Iran.
    DHS grants play a critical role in making sure our 
communities are prepared. But inexplicably this administration 
has sought to cut preparedness funding for State and local 
partners, even as the risk level has increased.
    Commissioner Miller, thank you for being here. I am very 
proud of the work that you do on behalf of our city. Last year, 
while the administration's budget request sought decreases, I 
fought alongside my colleagues to ensure increased funding for 
nonprofit security grants in the appropriations package. 
Shortly after this package was signed into law last December, 
including our requested funding, we received a stark reminder 
of why it is necessary, when yet another anti-Semitic attack 
occurred in the State of New York.
    Can you discuss the importance of nonprofit security grants 
for New York City's synagogues, mosques, and churches? In your 
experience at NYPD, what are some of the most effective 
measures grant recipients can take with these funds?
    Mr. Miller. Sun Tzu in ``The Art of War'' said, he who 
protects everything, protects nothing. So when you have a 
counterterrorism force like the CRC, 526 police officers, you 
have to look at the threat stream literally on a daily basis, 
sometimes on an hourly basis, and shift those forces around. 
Between those forces, the Hercules teams, you have seen them 
out there, Congresswoman, with the long guns, high-profile, but 
you can't cover 250 mosques, you can't cover 1,500 synagogues, 
you can't cover every piece of critical infrastructure. So you 
have to be strategic.
    What that means is that locations that are going to be in 
the threat stream on a regular basis, houses of worship, other 
critical places, their ability to protect themselves with 
enhanced security, guarded access, cameras and sensors, that 
when there is a threat, allows them to document that. Whether 
it is preoperational surveillance or an incident that occurs, 
those are law enforcement's best friend, and that is the best 
layer of protection for a citizenry that in New York City is 
certainly aware of the threat and invested in it. I believe, 
you know, Mr. Masters can speak to that with more specificity, 
but we are entirely supportive of the funding for schools, 
religious institutions, and other private organizations that 
find themselves in the crosshairs of the target.
    Ms. Clarke. Very well, thank you.
    Mr. Masters, anti-Semitic events in this country are at 
near-historic levels. A significant increase of violence and 
threats of violence against religious institutions, 
particularly in the Jewish community, have been unnerving, the 
most recent of which was a mass stabbing at a rabbi's house in 
New York State.
    What do you think is driving this trend? In addition to 
ensuring robust funding for the nonprofit security grant 
program, what more can Congress do to be helpful in the face of 
rising anti-Semitism?
    Mr. Masters. Thank you for the question. What is driving 
the events is a confluence of issues, but at its root is anti-
Semitism. But it is effectuated through individuals that range 
in ideology and motivation, as Mr. Miller and I have 
referenced, from the white supremacists and neo-Nazis, to 
Islamist extremist groups, emergent groups like Moor 
Sovereigns, Black Hebrew Israelite movements, as well as 
others; simply individuals. We average 1 mass attack in this 
country approximately every 2 weeks. The reality is that our 
Jewish institutions--schools, camps, houses of worship, 
community centers, senior centers--are targets not just because 
they are Jewish, but because our community institutions are 
under attack during these mass events that we see. That is a 
reality that we have to address.
    How we address that, to go back, if I may, to part of your 
question to Deputy Commissioner Miller, is working with 
facilities to undertake threat assessments. That is the first 
step of the grant--the nonprofit security grant, to make 
yourself eligible for it. Those assessments need to be 
meaningful. They allow us to work with law enforcement to 
establish a baseline of where an institution is. Then we need 
to use these grants to develop a strategy. A camera, a lock, 
even window film in and of itself is not a security strategy; 
it is part of a program. Now that the funds can be used for 
planning and for training and infrastructure protection, it 
allows us to work with community institutions to develop that 
security strategy cooperatively in a coordinative way with law 
enforcement at all levels, and that is making an incredible 
difference around our country.
    Ms. Clarke. Thank you, Mr. Chairman. I yield back.
    Mr. Payne. Thank you.
    I now recognize the gentleman from Mississippi, Mr. Guest.
    Mr. Guest. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here today. I want to thank 
you and the men and women that serve under your direction for 
the vital service that you provide to our Nation.
    In reviewing the materials prior to today's hearing and 
listening to the testimony today, it is very apparent that 
these grants are multifaceted, that we are seeking not only to 
protect our homeland from terrorist attacks, both domestic and 
abroad, but then as we continue to break that down, we look at 
trying to make sure that we are prepared to respond to active-
shooter situations, that we are prepared to protect our houses 
of worship, that we are preparing against cyber attacks, that 
we are responding to natural disasters, that we are collecting 
intelligence, and that we are deploying cutting-edge technology 
across our country in the hope to prevent future attacks.
    I want to talk very briefly about a couple of those things. 
First, Mr. Sprayberry, I want to talk to you a little bit about 
your responses to natural disasters. In your written testimony, 
in the last 4 years, there have been 3 hurricanes and 1 
tropical storm that has struck North Carolina. I know that you 
have talked a little bit about the importance of this type of 
grant funding to help, No. 1, prepare you to preposition assets 
and to be able to quickly respond to that. So can you talk to 
me just very briefly about the importance this grant funding 
has had for your ability to respond to a natural disaster and, 
particularly in this case, the tropical storms and hurricanes?
    Mr. Sprayberry. Thank you, sir. Thank you for that 
question. I will tell you that it has played a critical part 
for us. We have saved over 7,500 individuals during those 4 
storms that you were just referencing to. We did that with, not 
just helicopters, but also with boats, and we did it with 
training. Now, we didn't purchase all the boats through 
Homeland Security. We did a lot of that through our State 
funding, but we used Homeland Security funding for training.
    As you know, you can't have a good, well-executed response 
without having a good communications platform. So we have 
invested heavily with Homeland Security in our 800 megahertz 
radio system. That has allowed all of our first responders, no 
matter what discipline they have, to basically tie into this 
800 megahertz program. We call it VIPER. We are able to deploy 
anywhere in the State for whatever type of disaster and 
communicate with each other. We routinely practice this through 
exercises that are funded with Homeland Security funding.
    So I can tell you we have regional response teams for 
hazardous materials that also go out. When we have disasters, 
these are big items for us because we have a lot of HAZMAT 
spills due to the flooding that we have. So I can tell you that 
the money that we get for everything from communications to 
search and rescue has been key for our success and the 
response.
    Mr. Guest. Thank you.
    Mr. Miller, let me ask you, very briefly talk a little bit 
about some of the cutting-edge technology that you have been 
able to deploy based upon funds received from this grant. You 
talk briefly about that on page 3 of your written testimony. 
But I would just ask if you could expand on that very briefly 
for us.
    Mr. Miller. One aspect of it is the Domain Awareness 
System. Another aspect of it is the hardware. But I think if 
you take a look at recent events, specifically when Jersey City 
came under fire with 2 gunmen firing hundreds and hundreds of 
rounds at police, NYPD sent an armada of armored vehicles 
purchased with Homeland Security moneys for just such a 
terrorist attack to back them up, if needed, as well as bomb 
technicians, robots, and so on.
    But on the more technical end, if you look at the Monsey 
attack against the home of the rabbi with the 5 people stabbed, 
once our intelligence bureau people from the NYPD arrived at 
the scene at Monsey, which is fairly far outside New York City, 
and began to get data from them, we fed that into the Domain 
Awareness System. At 11:02 p.m., a DHS-funded license plate 
reader on the George Washington Bridge ticked to us that the 
vehicle wanted for that attack had just entered New York City. 
I was on the phone to our Domain Awareness System night watch, 
and they began real-time monitoring of the systems with that 
plate as a vehicle alert under the Royal system, and when it 
went into the Bronx, it ticked a second license plate reader. 
They went right on the division radio and said to the cops in 
the Bronx, this car wanted for multiple stabbings is headed 
your way. When it turned around, it ticked that there was a U-
turn, and it was headed back into the 32d precinct. They went 
on the radio direct to those units. As I was heading in that 
direction, police officers came on and said, we have that car. 
We are going to stop it. Prior to that, when the suspect had 
gotten out of the car and gone into a store, his movements were 
recorded by one of the Domain Awareness System's cameras that 
were funded by the same funds.
    Suffice it to say, these tools are used every single day in 
crime fighting in New York City. It is one of the reasons we 
have the lowest crime among major cities. But in the event of a 
terrorist attack, they become a critical layer of our 
protection. The technology is every bit as important, and the 
investment and maintaining that as the bomb-sniffing dogs, the 
bomb squad equipment, and the armored trucks, we use it all, 
and it needs to be maintained and refreshed, but it is 
critical.
    Mr. Guest. Thank you, Mr. Miller. I am out of time, but 
would the panel all agree that these grants have made America 
safer? Would we all agree with that?
    Mr. Sprayberry. Absolutely.
    Mr. Kierce. Yes, sir.
    Mr. Masters. Yes.
    Mr. Miller. Yes.
    Mr. Guest. Thank you, Mr. Chairman. I yield back.
    Mr. Payne. Thank you, sir.
    I now recognize the gentleman from Texas, Mr. Green.
    Mr. Green. Thank you, Mr. Chairman. I thank the Ranking 
Member, the witnesses for appearing. I would also like to thank 
the staff. I do so because it is said that great people always 
rise to the occasion, but the greater people make the occasion, 
and the staff literally helps make these occasions. They are 
the greater people, so I thank them.
    I would like to share a thought that is rarely expressed. 
When these horrible acts occur, Black people cringe, because 
the first thing that comes through their minds is this: Was the 
assailant Black? We really have suffered so much for so long 
that this issue plagues us. It is my opinion that, regardless 
of the race of the person, all people who perform these 
dastardly deeds based on hate have to be condemned. It doesn't 
matter what your organization is, how you got started. Maybe 
your intentions were honorable initially, but they are not now. 
We have to condemn it, because it is hate. Those who tolerate 
hate, perpetuate hate. Hate has to be dealt with from the top. 
The tone and tenor is set at the top.
    Mr. Deputy Commissioner, do you agree with the premise that 
the tone and tenor of your organization is set at the top?
    Mr. Miller. I believe that all organizations are in some 
manner a reflection of their leadership, yes.
    Mr. Green. Thank you.
    I am confident that not one of you would agree that there 
were very fine people among the bigots at Charlottesville. I 
don't believe one of you would agree. If you do agree that 
there were some fine people, kindly extend a hand into the air.
    Let the record reflect that not one hand is in the air. No 
fine people among those neo-Nazis, white supremacists.
    The tone and tenor is set at the top. The Chief Executive 
Officer of the United States of America, fine people. In 
Charlottesville, where a woman lost her life to hate. We cannot 
allow ourselves to tolerate hate from any source. We have to 
have the courage, the intestinal fortitude to stand against it, 
regardless as to the source.
    It is ironic that the President is cutting these grants, 
and some of the acrimony that we are experiencing is 
exacerbated by his commentary, this whole country's in Africa. 
There is commentary at the top that sets the tone and tenor. 
That is unacceptable. My hope is that we can change this.
    Mr. Bishop, I agree with you, this city ought not have been 
cut out of this loop. It should not have been. I don't know 
what I can do to help you, but I will. This is not a partisan 
issue. It shouldn't happen. Republican National Convention is 
going there. I want Republicans protected. After all, I have to 
have someone to argue with. So I want to help.
    But I want to make this final comment. We have a bill that 
passed the House, 290 bipartisan support. It was on the 
suspension calendar, 290-118, 290 for, 118 against. This bill 
streamlines the CDBG-DR process, so you don't have to always 
start at the top and have the money trickle down to various 
municipalities. It provides those with accounting departments 
that can handle large sums of money the opportunity to receive 
some direct funding. It is a very important piece of 
legislation. It has passed the House. Our challenge now is to 
get it through the Senate. Bipartisan ought not be held up. So 
we have a job to do. I respect you and I support your position.
    I yield back the balance of my time.
    Mr. Payne. Thank you, sir.
    I now recognize--oh, Mr. Crenshaw is gone. Let me follow 
up.
    Now, also, Mr. Kierce, I have been advised that FEMA 
lowered New Jersey's risk ranking. Can you discuss the impact 
of this concerning information?
    Mr. Kierce. Yes, sir, Mr. Chairman. We recently learned 
that our risk ranking dropped from 7 to 9. Obviously with the 
tier top 11 UASIs in the United States this is problematic. One 
of the things that we were told in a recent conference call was 
that DHS is not including intelligence-gathering information 
from the FBI, and will not be done so until 2021.
    Another thing that is quite vibrant in New Jersey, we have 
what they call SARs reports, which is basically suspicious 
activity reports, which are funneled through the local police 
offices on a State, county, and local level. They are sent down 
to our regional fusion center, down with the State police in 
the ROIC. If those reports--and obviously they are sent through 
the FBI--if those reports are not being included in the 
analysis by DHS, that is problematic in itself.
    The other thing is how do you account for extremist groups 
that are residing within the UASI region? There again, we are 
not gleaning this information. The other problem that we have 
too, it appears that they are not collecting information from 
the bomb data center, which is another good way to determine 
where we see additional domestic terrorism incidents. Another 
problem that we saw was that there is an issue with 
prosecutions only being counted based on the location of the 
prosecution on the Federal level.
    I think last and probably the most important is, 
apparently, there was no data call done by DHS in 2019. What 
data calls do, it allows what we have risk mitigation planners 
in each one of our 70 UASI counties, to share that information. 
For instance, one of the things that I found quite troubling, 
they published a list of major events that is impacting the 
UASI region. Jersey City was listed for 4 events when, in fact, 
our documentation proves that we have over 260 major events in 
2019 that had at least 1,000 people in attendance. I don't know 
what the answer is. I think that, you know, they have to take a 
serious look at how they are currently rating--these ratings 
are being analyzed and presented. You know, there again, my 
feeling is that if our rating is lower, there is a potential 
that they would lower our funding.
    Mr. Payne. Thank you. We definitely have to pose that 
question to FEMA on how they create their criteria, which, you 
know, I know in North Carolina, sir, with Charlotte being just 
totally excluded, it just makes no sense that that is the case. 
But these are issues that we want to raise with FEMA. So we 
thank you for putting them on the record.
    Mr. King.
    Mr. King. Thank you.
    Mr. Miller, just for the record, could you give us the 
total number of NYPD, both civilian and police officers, who 
were involved in counterterrorism intel units, what's the total 
that are working every day on this issue?
    Mr. Miller. So the total number of the people who do this 
full-time in the NYPD for a living every day is around 2,000. 
When you consider 700 and some-odd in intelligence, and equal 
number, slightly larger, in counterterrorism than the force at 
the JTTF, than the forces that we task every day from SRG. But 
I think when you see a crisis like this, we also press a 
button, and with the advantageous, again, funded with DHS 
funding, our smartphones can make 36,000 NYPD officers, 
counterterrorism officers. That means sending out that license 
plate, sending out that picture, sending out that alert. We are 
prepared to do that on a regular basis.
    Mr. King. Well, sir, I would just add and I say this to 
Yvette Clarke, who is a good friend, this committee has worked 
better when it is bipartisan. I agree with you, I criticize the 
Trump administration with the grant funds, but this goes back 
to the start, even the last years with the Bush administration, 
they were cutting Homeland Security funds. In every year of the 
Obama administration they were cutting it. I think the problem 
we have here is the administrations look upon this as a budget 
issue and they look at it as being static. When this committee 
was formed, when the Department of Homeland Security was 
formed, we were talking about Islamist terrorism coming from 
overseas. We didn't anticipate neo-Nazis, white supremacists, 
Black Israelites. We didn't count on massive gun attacks.
    So all this is added. Unfortunately, also, we weren't 
counting on all of these climate issues, the flooding. So the 
budget, either it stays static, it is actually being decreased. 
Certainly doesn't help Mr. Bishop. It makes no sense on the 
heel of when the National convention is coming to Charlotte, in 
addition to everything else, to take them off the UASI list. So 
what they try to do, in fairness to DHS, is work within a 
budget. The budget was basically established in 2002 or 2003. 
So we are trying to make everything fit into that budget.
    I think we have to expand the size of the budget. We have 
to realize that we have, now, problems we didn't anticipate 
then. Then it was just Islamist terrorism; now Iran is much 
more of an issue. Not just under President Trump; these arrests 
are going back to during the Obama administration, of sleeper 
cells in New York, and the shootings that are going on, the 
attacks on churches. That was minimal back in 2001, 2002. Now 
it has fallen under the jurisdiction of Homeland Security.
    So I think we should really try a bipartisan effort and not 
just keep this regional northeast versus the south or anything 
else. Realize that every area of the country has increased 
issues, increased problems that come under the scope of 
Homeland Security, and that we have to find a way to make 
bipartisan pressure, not just to fight every year to put the 
money back in the budget to maintain it, but to increase it. Be 
out front in saying that because, otherwise, we are on defense. 
Whether it is Obama or Trump. The Senate is about doing massive 
cuts, and we think we are heroes because we restored the money. 
Well, the fact is restoring the money is still a cut, and that 
is the reality.
    So I think we should get started early on in every budget 
year and say that money has to be increased. This is not just 
not some green eyeshade accounting issue. We are talking about 
life and death here. None of us wants to go through another 9/
11, none of us wants to go through the massive hurricanes and 
storms that have hit, nobody wants another temple shooting, 
nobody wants another church attack. To have all of this going 
on and we are just trying to live within the small budget, it 
is small in comparison overall, and yet the cost is human life. 
I mean, now we are very concerned with anti-Semitism because of 
the last several months, over the last several years. It could 
be something else coming up. We have to make sure that the 
police and all of the authorities have the funding they need.
    So, again, I am saying this being critical of the Trump 
administration, as I was very critical of the Obama 
administration and the Bush administration in the last several 
years. This is not an accounting issue. It is a life-and-death 
issue and we have to face up to it.
    With that, I yield back.
    Mr. Payne. Thank you. I agree with you wholeheartedly. I 
was critical of the Obama administration too at the time of the 
cuts, you know. I don't know how the formulas are made for 
this, and that is something that we really have to get to the 
bottom of how the criteria is subjective or not.
    You know, the linkage between New York and Jersey City and 
Newark. I will give you two examples that I am not proud of. 
The original bombing of the World Trade Center in the lower--
when they tried to go low, those terrorists were living in 
Maplewood, New Jersey, until they did that. The Chelsea bomber 
ended up running to Linden, New Jersey, after he did his 
bombing. So these areas are so interconnected, and somehow we 
have to get the Department to understand the connectivity of 
this in order to make sure that the funding stays robust for 
the entire Nation.
    With that, I will----
    Mr. King. Chairman, may I have jut one moment?
    Mr. Payne. Yes.
    Mr. King. I think Mr. Miller would agree also that when you 
make these arrests in New York, you get intel that affects the 
whole country.
    Mr. Miller. I could not agree more. I think if you look at 
the geography of it, the first World Trade Center bomb was 
built in Jersey City. The 9/11 hijackers did flight training in 
New Jersey while living in Paterson. The individual who ran 
over people on the West Side Highway was living in Paterson, 
New Jersey. The Times Square truck bomber, Faisal Shazad, was 
from Connecticut. The white nationalist groups that are 
extending in western New Jersey, Pennsylvania, and other places 
are all a factor in this.
    New York City will fight for its share of the pot. I am 
sure we will do fine. But it is not about taking money from 
Jersey City or Charlotte. It is what you gentlemen just pointed 
out; a formula aside, the core here is the pot needs to be 
bigger for the country.
    The Pittsburgh attack, as you mentioned, and others, are 
telling us that this is an issue that is spreading. Sure, New 
York is the top target, but there is nowhere, as we are 
learning, week by week that is not a target.
    Mr. King. So without mentioning names, I am sure you have 
come up with other cities where there is a real threat from 
Hezbollah that are far away from New York City.
    Mr. Miller. We have often said, and I said this recently to 
our briefing prior to the Soleimani incident, our briefing with 
the Vice President of the United States at police headquarters, 
that events in places like Iran can change very rapidly over a 
period of a week or 10 days. It can change the geopolitical 
threat picture vis-a-vis a well-funded state actor, and that we 
have be prepared to ramp up to that. These are real factors 
that have just demonstrated themselves beyond theory.
    Mr. Payne. As we see the circumstances, you know, that we 
fortify in New Jersey and New York, these actors are going to 
look for points of weakness where they can attack. So it is 
naturally going to permeate the entire Nation.
    With that, Mr. Rose, if you would like another.
    Mr. Rose. I believe Ms. Underwood.
    Mr. Payne. Oh, the gentlelady from Illinois is here. Well, 
you are recognized for 5 minutes.
    Ms. Underwood. Thank you, Chairman Payne.
    As we know, one of the Department of Homeland Security's 
most important tools for securing community organizations is 
the nonprofit security grant program, the NSGP. These grants 
help first responders, schools, nonprofits, including houses of 
worship, defend against terror attacks, and these grants are in 
high demand. I am so pleased that we just enacted a significant 
increase in their funding, in large part, thanks to Chairman 
Thompson's advocacy.
    Critically, this additional funding is dedicated to 
suburban and rural communities like mine in northern Illinois. 
Communities like mine face a real resource gap in defending 
against threats of terrorism, and I am working on legislation 
to address that.
    So first to Mr. Masters, Mr. Sprayberry, and Mr. Kierce, 
when it comes to outreach and engagement with suburban and 
rural communities, what do you think DHS is doing right and 
where are potential areas for improvement?
    Mr. Masters. I think broadly the enactment of the increases 
in funding, thanks to the Members of this subcommittee and 
certainly led by Chairman Payne and Ranking Member King, has 
been instrumental. They are providing guidance and technical 
support to effectuate those grants. We also know that the need 
far outweighs even the increase.
    Where things have been strong, I think that we have seen 
great support from the protective security advisers across the 
country. That said, we believe that there needs to be enhanced 
resourcing to DHS to allow for more protective security 
advisers. They are overtasked and underresourced. I also 
believe that information sharing, which is often done through a 
complex network engaging the DHS-funded fusion centers, State, 
local, and Federal law enforcement, is good, but there are ways 
to vastly improve that.
    Deputy Commissioner Miller has referred to the Domain 
Awareness System. We would do well to have full awareness 
around our entire domain and learn from the example of the NYPD 
around the country. Then I would just simply conclude also 
increasing funding and encouraging DHS to have the resources to 
enhance work at the cyber--on the cybersecurity front with 
State, local, Federal entities, and certainly the nonprofit 
community. This goes directly to the threat with Iran, 
particularly for the Jewish community. We are dealing with 
cyber threats every single day around the country and they know 
no jurisdictional boundary. So it is absolutely essential.
    I will just conclude by saying, we won't know the time and 
place of the next incident.
    Ms. Underwood. That is right.
    Mr. Masters. We often hear the phrase, ``there is no known 
direct credible threat.'' I firmly believe we won't know it 
until it is walking up the steps at one of our schools, 
synagogues, mosques, or churches, which means we need to 
protect the whole homeland and increase the funds, as other 
Members have said, to do that effectively.
    Ms. Underwood. Thank you.
    Mr. Kierce.
    Mr. Kierce. I think one of the big things that we have in 
our UASI group is we cover a broad spectrum. We have the 2 
largest cities, Jersey City and Newark in the group, as well as 
7 contiguous counties, one of which is Morris, which is 
primarily a rural area. I think the information-sharing piece, 
which is shared across the board by all participants with the 
UASI group, is critical.
    You know, we are fighting a terrorist today, domestic 
terrorism, that operates under the cloak of darkness. They use 
the world wide web, they use Facebook pages and other internet 
pages. It is extremely, extremely difficult to determine what 
they are going to do and when they are going to do it.
    One of the things that John had alluded to before, the ANPR 
systems, we use them exclusively throughout the State of New 
Jersey, and it is critical information sharing. If we were in a 
situation where we had to cut back, for instance, on storage 
capabilities and things like that, these are the projects that 
would be suffering.
    The cameras are another key. Jersey City has expanded our 
camera system to over 300 cameras, most of which are in inner 
urban areas, as well as critical infrastructure, and that is 
key in crime fighting. These are the things that we have to 
ensure stay in place.
    Ms. Underwood. Thank you.
    Mr. Sprayberry.
    Mr. Sprayberry. Yes, ma'am. I would say that we appreciate 
the additional funding for the nonprofit grants. One of our 
challenges is to make sure that our outreach is good and 
thorough for, you just kind-of mentioned it, about how do we 
get to all the rural folks.
    Ms. Underwood. That is right.
    Mr. Sprayberry. That is difficult. I am not going to sit 
here and tell you that it is not. So, you know, there is a 
limited amount of funding, but we want to try to make sure that 
we are doing that outreach.
    We have heard some complaints that the turnaround time on 
these grants is pretty quick and so for the application. So I 
was speaking with Mr. Masters before, and we were talking about 
we need to let our folks know that we know about when these 
grants are coming out and so you have got like, you know, 11 
months and 2 weeks to begin preparation for your application.
    So those are the kind of things that we need to get out 
there, because if you think about synagogues and churches out 
in the hinterlands of the State, you know, they might not be on 
the radar to understand there are grants available for them.
    Ms. Underwood. And that they qualify.
    Mr. Sprayberry. And that they qualify.
    Ms. Underwood. That is right. Because a lot of people are 
aware that there is money and they don't think that it is 
available to them. They don't know about the protective service 
advisers. They don't know about the resources that we have 
funded and put forward to this country to keep our individual 
communities safe, and folks have no idea.
    Mr. Sprayberry. That is communications. So that is still 
one of our challenges, but we are continuing to work. We 
typically spend all of our money, but----
    Ms. Underwood. Sure.
    Mr. Sprayberry [continuing]. We want to make sure that it 
is equitably done and that we are addressing the threat per the 
risk.
    Ms. Underwood. Well, thank you so much for the work that 
you do in each of your jurisdictions and for your organization, 
sir, and for your testimony. We know how critically important 
these grants are to supporting vulnerable communities and 
organizations. I look forward to working with Members of this 
committee to ensure that their security needs are met by 
proactively addressing the emerging threats.
    Thank you.
    Mr. Payne. Thank you.
    I ask unanimous consent to insert a statement for the 
record from the Jewish Federation of North America.
    Without objection.
    [The information referred to follows:]
       Submitted For the Record by Chairman Donald M. Payne, Jr.
                The Jewish Federations of North America
                                   January 9, 2020.
The Honorable Donald M. Payne, Jr.,
Chairman, Emergency Preparedness, Response, and Recovery Subcommittee, 
        Committee on Homeland Security, US House of Representatives, 
        Washington, DC 20515.
The Honorable Peter T. King,
Ranking Member, Emergency Preparedness, Response, and Recovery 
        Subcommittee, Committee on Homeland Security, US House of 
        Representatives, Washington, DC 20515.
    Dear Chairman Payne and Ranking Member King: The Jewish Federations 
of North America (JFNA) applauds you for holding today's hearing on the 
importance of the DHS preparedness grants programs, which comes on the 
heels of multiple mass casualty attacks on faith-based communities in 
Jersey City, New Jersey, White Settlement, Texas, and Monsey, New York.
    Regrettably this past year, the Federal Bureau of Investigation 
investigated more than 100 threats to faith-based organizations, and 
jointly assessed with the Department of Homeland Security and National 
Counterterrorism Center that home-grown violent extremists, foreign 
terrorist organizations, and domestic hate groups will continue to pose 
a lethal threat to religious and cultural facilities at home. They 
especially warned against mass casualty attacks at large gatherings and 
soft targets that are difficult to detect before they occur. And they 
are occurring.
    Reflecting on the current state of hate in America, and the 
resultant number of violent attacks on religious institutions and 
members of religious groups, we are grateful to you, the subcommittee, 
and full committee Chairman Bennie Thompson, for your strong support 
for DHS/FEMA's Nonprofit Security Grant Program (NSGP), a program JFNA 
proposed Congress establish in the post-9/11 environment.
    For our community, the genesis of NSGP came into being in reaction 
to Nation-wide FBI warnings in June 2002 that al-Qaeda operatives using 
fuel trucks might attempt to bomb Jewish Schools or synagogues. Today, 
these threats continue. In November, 2 men pleaded guilty to acting on 
behalf of the government of Iran by conducting covert surveillance in 
the United States on targets that included Jewish facilities, such as 
places of worship. Additionally, in December, a Hezbollah operative was 
found guilty on terrorism charges for conducting surveillance on New 
York City targets that included daycare centers.
    With bipartisan, bicameral support, Congress established the NSGP 
program in fiscal year 2005, to fund hardening and other physical 
security enhancements of nonprofit organizations deemed at high risk of 
terrorist attack, and to better integrate their preparedness activities 
with the broader State and local preparedness efforts. Eligible 
investments include access controls, barriers, blast-proofing, 
monitoring and surveillance capability, and cybersecurity enhancements, 
and related preparedness and prevention planning, training, and 
exercises.
    These investments protect against the threats DHS has identified as 
of most concern to faith-based facilities, including bombing, arson, 
small arms, assassination, kidnapping, chemical-biological-radiological 
agent, and cyber space attacks. These are similar in nature to the 
physical security enhancements acquired and installed at Government, 
law enforcement, and military infrastructure in the post-9/11 
environment. To this last point, in November, the FBI released a Lone 
Offender Terrorism Report that found that the primary targets of lone-
wolf attacks after Federal Government facilities and law enforcement 
personnel are religious centers and personnel.
    Prior to the establisnment of the NSGP program, there was no 
coordinated, centralized program that promoted and ensured at-risk 
nonprofit institutions meaningfully participated in and benefited from 
Federal, State, and local homeland security efforts. Despite legitimate 
non-profit threats and concerns, non-profit institutions lacked a seat 
at the table to participate in meaningful planning, training, target 
hardening, and other investments provided through the existing DHS/FEMA 
Preparedness Grant Programs. Essentially, the nonprofit sector was not 
accepted as a legitimate stakeholder and could not compete for Federal 
preparedness resources. The NSGP program substantially changed this.
    The program is competitive and risk-based, emphasizing the 
protection of institutions particularly targeted due to their mission, 
belief, or ideology. It involves a State and local review and 
prioritization process, followed by a Federal review and 
recommendations made by FEMA, and final award determinations made by 
the Secretary of Homeland Security. To date, DHS has made around 4,000 
NSGP awards. Reflecting on the awards, FEMA Grant Programs Directorate 
Assistant Administrator Thomas DiNanno testified before this 
subcommittee in April 2018 that while a small program, NSGP is 
significant to its recipients. We agree it is significant and the 
demand far outweighs available resources. Between fiscal year 2014 and 
fiscal year 2019, we estimate that FEMA received approximately 6,160 
applications but was able to make only about 2,240 awards.
    For many years, the program was limited to the Nation's top-tier 
high-threat urban areas. However, recognizing that today's risks have 
no jurisdictional boundaries, Congress, led by Congresswoman Nita Lowey 
(D-NY), expanded program eligibility in 2018 to include all 
communities--urban, suburban, and rural. We expect this expansion will 
lead to even more demand for NSGP resources. After the mass killing at 
the Tree of Life synagogue in Pittsburgh, Pennsylvania, FEMA expanded 
the program's permissible costs in 2019 to include contracted security 
personnel.
    With continued and growing incidents of threats, attempted attacks, 
and deadly occurrences targeting Jewish communal institutions, and 
other vulnerable faith and nonprofit communities, JFNA is grateful for 
your concern and the elevated attention today's hearing will bring to 
these issues and the importance of the NSGP program. It is our hope 
that Congress will expand the reach of NSGP through increased funding 
this session, and to find ways to further promote the inclusion, 
coordination, and collaboration of the at-risk nonprofit sector with 
broader Federal, State, and local preparedness and prevention 
activities and investments.
            Sincerely,
                                        Robert B. Goldberg,
                              Senior Director, Legislative Affairs.

    Mr. Payne. Mr. Rose.
    Mr. Rose. Mr. Miller, I certainly stand with a sentence of 
my colleagues that this is a bipartisan failure, the absence of 
increased Homeland Security funding. You can't say you are 
tough on terrorism and not fund efforts against it, but 
certainly, all other levels of government have to do their 
part. So I am wondering if you could take a few minutes and 
please speak to your thoughts and sentiments regarding the 
recent bail reform, the bill was passed by the State, and how 
it has potentially affected the NYPD's efforts to counter 
skyrocketing anti-Semitism and the threat of violent crime, to 
include terrorism.
    Mr. Miller. The recent bail reform laws passed by the New 
York State Senate is a legislative package that was passed in 
the dark of night without any consultation on a meaningful 
level with prosecutors, judges, police, sheriffs across the 
State. What it means to us in New York City is that an entire 
laundry list of serious crimes have become expressly prohibited 
by law for a judge to remand someone or to set bail. Cynics 
have long talked about the revolving door of justice. This is 
no longer cynicism; this has become a reality.
    Interestingly, no organization has gone further or faster 
toward criminal justice reform than the NYPD. We have leaned 
into this by, along with reducing crime, reducing arrests for 
misdemeanors by 38 percent, by reducing the number of 
summonses, by reducing stop and frisk by 92 percent, while at 
the same time seizing more guns, not less, than before, and 
reducing crime, while reducing enforcement. This was a solution 
in search of a problem. It is going to make the city less safe, 
not more safe.
    Mr. Rose. Thank you, sir.
    In the wake of what has happened recently, we are certainly 
more aware or evermore aware of the cyber threat to New York 
City and the region at large. Can you confirm for the record 
that all pieces of critical infrastructure, critical 
infrastructure are right now protected from a cyber attack in 
New York City?
    Mr. Miller. Cyber is a moving target. Every day that we add 
a layer of protection of critical infrastructure, somewhere a 
State actor or a cyber criminal is trying to figure out another 
way in. So I don't know that there will ever be a State of 
total protection. But I can say that we have, interestingly, 
based on a model that was developed in Michigan, put together 
our critical infrastructure components across all sectors, and 
we have started to share information truly in a real-time 
basis. When one entity gets threat information, it is passed to 
all the entities on the theory that they are all a target.
    Mr. Rose. Is there anything else the Federal Government can 
do to assist? We are aware that CISA is providing or making 
access to some grants, obviously pushing down information. What 
else can we do to help?
    Mr. Miller. I think we are watching the cyber threat 
expand. We just launched a 4-month study beyond critical 
infrastructure, which is the cyber threat to National security, 
the cyber threat to the average Joe and Jane, and what we found 
was that we lost over $300 million from victims in New York 
City over the course of 2019 to crimes where we really have to 
step up to train 36,000 police officers of how to respond to a 
complex cyber crime when somebody calls the police, training 
they don't have. We are going to push resources into that, but 
this is going to be a continuum for many jurisdictions, and we 
are all going to need help. We are going to need help on the 
big side and the small side.
    Mr. King. Would the gentleman yield for 1 second?
    Mr. Rose. Sure.
    Mr. King. I will just concur with Mr. Rose, as far as 
Nassau and Suffolk, also being very concerned about the bail 
reform. We are facing real consequences already.
    Mr. Payne. Thank you.
    Mr. Bishop.
    Ms. Clarke.
    Ms. Clarke. I did have one further question, but before I 
raise that question, and the question is to Mr. Miller, is I 
would be a bit concerned as well about the bail reform and us 
using extremes. There are individuals, based on their 
economics, who have been detained but have not been charged for 
several years, and it is only because of their inability to pay 
their bail that they were ultimately held there. We have had 
some very tragic outcomes as a result of that. I do believe 
there should be consultation, but I don't believe that we 
should be throwing the baby out with the bath water.
    I definitely believe that judges should have discretion, 
and there needs to be some more tinkering with this, but there 
have been some very unjust outcomes based on an antiquated bail 
system that we have had in the city of New York.
    Having said that, I want to get back to you, Mr. Miller, 
because I know that, in addition to religious institutions, one 
of the most at-risk targets in New York City is our public 
transportation network, which we know has historically been the 
target of international plots. Can you discuss your experience 
with DHS Transit Security Grant Program? Are there any specific 
transit security projects NYPD feels should be funded under 
this program which haven't been?
    Mr. Miller. Madam Congressman, just for the record, the 
NYPD supports criminal justice reform in the legislative 
package and bail reform specifically. But it needs to be 
balanced between all the parts of the criminal justice system, 
which we feel it was not. But we agree with you on that.
    On transit security, as you know, we have an immense 
transit system. It moves about 6 million people a day. While it 
also enjoys low levels of crime, we have seen a sustained 
interest on the part of international terrorist groups in 
hitting transit as a key part of critical infrastructure. Our 
last terrorist attack was a man who blew himself up in what he 
determined correctly was the busiest pedestrian tunnel in the 
subway system before the Christmas season, and he did that for 
a reason.
    We do receive Federal funding for our transit 
counterterrorism teams, for our random bag checks, and our 
scanning for explosives and chemical. But it is--again, our 
concern is that that funding starts to get smaller slowly, and 
as that equipment needs refresh and replace, that we continue 
to focus on that, because it remains a top target.
    Ms. Clarke. Is there something that you think that can be 
done that we haven't done already in terms of these grants? We 
talked--I talked specifically about New York City, but transit 
is ubiquitous across this Nation. Mobility is something that we 
all strive for, and we are in a metropolitan area where we are 
all interconnected. So one disruption in one area means, you 
know, a shutdown in others. Is there something that we have not 
looked at that you think we need to take a look at?
    Mr. Miller. We have looked at aspects and spent Federal 
money on things like chemical and biological studies, including 
how would an agent like anthrax or another biological agent 
move through the system, given the tunnels and the trains and 
the winds and so on. We need to look at that further, because 
the preliminary results open additional questions. We need to 
look at radiation detection because, beyond the bullets and 
bombs, there is the dirty agent or distribution device 
possibility. It is--transit covers the myriad of threats. I 
couldn't give you a list right now today about the projects 
that we have on hold because of funding, but I can get it for 
you and respond in writing.
    Ms. Clarke. Very well. We will look forward to that.
    I yield back, Mr. Chairman.
    Thank you for your testimony here today, gentlemen, and 
your expertise and service to our Nation.
    Mr. Payne. The gentlelady might know that two Congresses 
ago, Mr. Rose's predecessor and I did a surface transportation 
committee hearing, and it is really a critical piece that we 
need to stay vigilant on.
    Mr. Miller. Absolutely.
    Mr. Payne. Well, I would like to thank the witnesses for 
their valuable testimony, and the Members for their questions. 
The Members of the subcommittee may have additional questions 
for the witnesses, and we ask that you respond expeditiously in 
writing to those questions.
    Pursuant to the committee rule VII(D), the hearing record 
will be held open for 10 days, without objection.
    Hearing no further business, the subcommittee stands 
adjourned.
    [Whereupon, at 11:52 a.m., the subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

 Questions From Chairman Donald M. Payne, Jr. for Michael A. Sprayberry
    Question 1a. The IT system FEMA currently uses to facilitate grants 
has been described as labor-intensive and complex by stakeholders; 
creating an increased burden on users that could cause delays in 
resources reaching jurisdictions in a timely manner. What has been your 
experience with using FEMA's IT system?
    Answer. Consolidation of systems has been helpful in improving the 
user experience. However, systems remain cumbersome, inefficient, and 
are not current based on grant requirements. As an example, for fiscal 
year 2020 the Homeland Security Grant Program has requirements for an 
increase in project scope and details, but no updated fields to add 
that information in the existing system.
    Question 1b. What efforts has FEMA taken to engage stakeholders and 
users on their feedback on how to improve the facilitation of its 
grants?
    Answer. Outside of the standard webinars completed by grants staff 
on how to navigate the grants portal, we have not received any surveys, 
technical assistance, or solicitation for suggested improvements.
    Question 1c. Do you have any suggestions on how FEMA could 
streamline its IT system, as to make the grant facilitation process 
smoother for stakeholders?
    Answer. System consolidation should continue to be pursued with a 
focus on improved customer service. The system consolidation should be 
across all FEMA grant programs. Additionally, consolidation of Federal 
recovery grant programs should also be consolidated into a single 
portal and single application to be shared across various programs.
    Question 2a. DHS preparedness grant programs are used to fund 
efforts to protect State and local jurisdictions from weapons of mass 
destruction such as biological weapons. How would cuts to the DHS grant 
programs impact biological preparedness at the State and local 
jurisdictional levels?
    Answer. Cuts in Federal funding for any of the DHS preparedness 
programs will correlate directly to reduced capability at the State and 
local level. State and local jurisdictions are reliant on this funding 
to maintain capacity and build additional capability when it comes to 
bio preparedness. With the increasing requirements on how States are to 
utilize Federal preparedness grant funds, States and locals have less 
flexibility to address the specific jurisdiction needs versus funding 
what DHS indicates.
    Question 2b. How reliant are State and local jurisdictions on DHS 
grant program funding for weapons of mass destruction preparedness?
    Answer. As mentioned above, in order to adequately maintain 
capacity and build capability, specifically for weapons of mass 
destruction preparedness and response, grant funding is needed for 
State and local jurisdictions. Significant capabilities have been built 
since 2001 and reductions have funding have already impacted those 
abilities. Additional funding cuts would continue to diminish the 
ability of State and local jurisdictions to adequately prepares and 
response to protect the public and critical infrastructure.
    Question 3. As you are aware, the Homeland Security Grant Program 
suite consists of competitive grants that are evaluated based on risk. 
Over time, however, the risk has evolved. Do you believe that the 
current risk formula and methodology FEMA uses to evaluate grant 
applications accurately reflects the risk? If not, why?
    Answer. The current formula does not accurately reflect risk. As 
discussed in my testimony, one of the fastest-growing cities in the 
United States, with an increase in population, business, and critical 
infrastructure, as well as regular major security events, was not 
funded as a part of the UASI program.
    The analysis process is flawed in several ways. First, the States 
and local jurisdictions have limited-to-no input into the data utilized 
to evaluate the jurisdiction risk. Second, the data inputs are from a 
combination of Federal agencies and contractors that the States are not 
able to review for accuracy. Third, despite the formula, DHS staff have 
indicated there is ultimately a level of subjectivity in rankings. 
Finally, we are provided an opportunity to offer a rebuttal to the risk 
ranking and as a part of that process we can provide corrected data for 
State or local mass gatherings or security events. For the fiscal year 
2019 funding allocation process, rebuttals were provided, but were not 
incorporated or updated when funding decisions were made.
    DHS is unable or unwilling to provide the data utilized in their 
risk analysis to identify funding for North Carolina. If we are being 
provided funding to address identified risk or threat, but then not 
provided the raw data that quantifies this risk, this does not support 
State and local jurisdictions in carrying out public safety and 
homeland security operations. We have discussed with DHS and FEMA that 
a more collaborative approach and open process needs to be undertaken. 
Currently, it is a closed process utilizing unclear or inaccurate data 
that directly impacts funding levels and has resulted in the losses of 
millions of dollars to North Carolina.
    Questions From Honorable Michael Guest for Michael A. Sprayberry
    Question 1. In the recently-released National Institute of Justice 
Report (December 2019) the NIJ stated that the forensic and homeland 
security communities should consider cross-cutting new technologies, 
such as Rapid DNA instrumentation for disaster victim identification 
(Page 131). Have you looked at Rapid DNA deployment in regions? Are 
there any impediments for deployment of Rapid DNA in your area?
    Answer. As a part of the State homeland security planning process, 
to include allocation of funding, we utilize multi-agency and multi-
disciplinary groups and partners to quantify risk, threat, and 
prioritize activity. Our health and medical and forensic laboratory 
partners are engaged in these processes and are vital to developing 
comprehensive program direction.
    The funding we are allocated each year to support homeland security 
programs has continued to decrease or remain at lower funding levels. 
As a result, our ability to implement specific initiatives, such as 
Rapid DNA, are impacted due to lower funding levels.
    Question 2. Congress passed the Rapid DNA Act of 2017 which 
provided a pathway for new and innovative technology to be utilized for 
many different purposes, including rapid disaster response. This 
provides for identification in less than 2 hours and Rapid DNA 
instruments are certified by the FBI to ensure top-level privacy and 
security. In California, Rapid DNA instruments were deployed for victim 
identification for both Paradise Camp Fires as well as for the recent 
Conception Boat fire incident. This technology provided victim 
identification in hours and not weeks or months (https://
www.usatoday.com/story/news/nation/2019/09/05/california-boat-fire-
victims-officials-id-bodies-dna-analysis/2219546001/). Given the 
response time is of utmost importance during disaster relief efforts, 
would it be helpful if FEMA's Homeland Security Grant program provided 
assistance for deployment of Rapid DNA for disaster relief in your 
region?
    Answer. While additional funding as a part of the State homeland 
security program is needed, it needs to be balanced with specific 
program or initiative requirements. This grant program already has 
significant requirements on how funding must be carved out and 
implemented, with additional onerous requirements for the fiscal year 
2020 allocations. At this time, States need to be given more latitude 
to implement programs based on risk, threat, and hazards, not as 
dictated by DHS.
       Questions From Chairman Donald M. Payne for W. Greg Kierce
    Question 1. DHS preparedness grant programs are used to fund 
efforts to protect State and local jurisdictions from weapons of mass 
destruction such as biological weapons. How would cuts to the DHS grant 
programs impact biological preparedness at the State and local 
jurisdictional levels?
    How reliant are State and local jurisdictions on DHS grant program 
funding for weapons of mass destruction preparedness?
    Answer. The UASI region funds hundreds of thousands of dollars per 
year of equipment that covers planning for chemical and radiological 
events. We have phased purchases (e.g. due to the high expense of each 
piece of equipment, they are split into multiple grant year) for 
sophisticated detection equipment for our Hazmat Teams that can 
identify chemical and radiological agents. The detection equipment we 
purchase for these teams is above and beyond what the counties/cities 
provide as basic Hazmat equipment and supplies. We have invested in a 
software/service called PEAC WMD that is a comprehensive database of 
CBRNE agents. We have also invested hundreds of thousands of dollars 
into a Radiation Reception Center that requires tens of thousands per 
year to maintain. More importantly though, we have invested millions 
and continue to invest heavily in explosives equipment for our bomb 
squads. The grant funding is of great importance to the advancement and 
capabilities of our Hazmat and Bomb Teams in the region.
    Question 2. As you are aware, the Homeland Security Grant Program 
suite consists of competitive grants that are evaluated based on risk. 
Over time, however, the risk has evolved. Do you believe that the 
current risk formula and methodology FEMA uses to evaluate grant 
applications accurately reflects the risk? If not, why?
    Answer. In terms of the risk formula, we are not provided with all 
of the details about the elements of the risk formula, so below are 
suggested changes/additions based on the limited information we are 
given:
    a. FBI Data--Information from the FBI needs be included. We were 
        told that FBI data was not included in the 2020 risk scores.
    b. The jurisdiction where an incident occurs should ``receive 
        credit'' rather than the location where a terrorist was 
        prosecuted.
    c. Hate Crime Data should be included.
    d. There should be a multiplier if a jurisdiction has had a 
        terrorist attack within the last 5 years.
    e. There should be way to include data about potential terrorists/
        radicals living within a jurisdiction--e.g. Hezbollah.
    f. Religious institutions should be included under the soft targets 
        section.
    g. Does the soft target percentage still make sense? Should it be 
        increased given the changed threat environment?
       Questions From Honorable Michael Guest for W. Greg Kierce
    Question 1. As we all know, my State of Mississippi has been hurt 
with tornadoes, hurricanes, and flooding from natural disasters. In 
December, 16 counties were declared disaster areas in response to the 
severe storms, straight-line winds, and flooding that occurred due to 
Tropical Storm Olga. Bringing relief and reuniting families in a swift 
manner are critically important for emergency response teams.
    In the recently-released National Institute of Justice Report 
(December 2019) the NIJ stated that the forensic and homeland security 
communities should consider cross-cutting new technologies, such as 
Rapid DNA instrumentation for disaster victim identification (Page 
131). Have you looked at Rapid DNA deployment in regions? Are there any 
impediments for deployment of Rapid DNA in your area?
    Answer. There is no impediment to procurement or use. The New 
Jersey State Police (NJSP) is in the process of using Violence Against 
Women Act (VAWA) funding to procure several units which will be 
regionally available for investigative, both criminal and disaster/
victims. This is relatively new technology, but of high value in 
disaster response, as well as rapidly identifying suspects in criminal 
matters. By yielding results in under 2 comparisons can be made for 
both victims and suspects through the Combined DNA Index System (CODIS) 
maintained by the FBI. DNA technology will enhance the ability of both 
disaster responders and law enforcement to identify victims/suspects 
quickly and accurately. We fully endorse the addition of Rapid DNA 
systems to the AEL.
    Question 2. Congress passed the Rapid DNA Act of 2017 which 
provided a pathway for new and innovative technology to be utilized for 
many different purposes, including rapid disaster response. This 
provides for identification in less than 2 hours and Rapid DNA 
instruments are certified by the FBI to ensure top-level privacy and 
security. In California, Rapid DNA instruments were deployed for victim 
identification for both Paradise Camp Fires as well as for the recent 
Conception Boat fire incident. This technology provided victim 
identification in hours and not weeks or months (https://
www.usatoday.com/story/news/nation/2019/09/05/california-boat-fire-
victims-officials-id-bodies-dna-analysis/2219546001/). Given the 
response time is of utmost importance during disaster relief efforts, 
would it be helpful if FEMA's Homeland Security Grant program provided 
assistance for deployment of Rapid DNA for disaster relief in your 
region?
    Answer. Response was not received at the time of publication.
       Questions From Honorable Michael Guest for John J. Miller
    Question 1. In the recently-released National Institute of Justice 
Report (December 2019) the NIJ stated that the forensic and homeland 
security communities should consider cross-cutting new technologies, 
such as Rapid DNA instrumentation for disaster victim identification 
(Page 131). Have you looked at Rapid DNA deployment in regions? Are 
there any impediments for deployment of Rapid DNA in your area?
    Answer. The NYPD's interest in the deployment of Rapid DNA 
technology primarily focuses on its potential use in criminal case 
work. Nonetheless, technologies such as Rapid DNA represent the future 
for victim identification in disasters and emergencies. New York City 
reoognizes the benefits that this technology can provide. The city's 
Office of the Chief Medical Examiner (OCME) responds to disasters and 
emergencies when fatalities are involved, providing efficient response 
and safe fatality management services to the city, as well as 
identifying victims of disasters and returning their remains to 
families in a timely manner. In 2019, the OCME sought and obtained 
approval from the NYS Forensic Science Commission and its DNA 
subcommittee to use the ANDE 6C Rapid DNA System on buccal swabs from 
reference samples collected for mass disaster and missing person 
identification.
    Consistent with the NYS Executive Law, laboratories seeking to 
conduct Rapid DNA analysis on any system or sample type must conduct an 
enhanced performance check and/or validation study subject to review 
and approval of the Forensic Science Commission and the DNA 
Subcommittee prior to such use. As mentioned above, the city's OCME 
completed this process in 2019.
    Question 2. Congress passed the Rapid DNA Act of 2017 which 
provided a pathway for new and innovative technology to be utilized for 
many different purposes, including rapid disaster response. This 
provides for identification in less than 2 hours and Rapid DNA 
instruments are certified by the FBI to ensure top-level privacy and 
security. In California Rapid DNA instruments were deployed for victim 
identification for both Paradise Camp Fires as well as for the recent 
Conception Boat fire incident. This technology provided victim 
identification in hours and not weeks or months (https://
www.usatoday.com/story/news/nation/2019/09/05/california-boat-fire-
victims-officials-id-bodies-dna-analysis/2219546001/). Given the 
response time is of utmost importance during disaster relief efforts, 
would it be helpful if FEMA's Homeland Security Grant program provided 
assistance for deployment of Rapid DNA for disaster relief in your 
region?
    Answer. While not currently utilized by the NYPD, the NYPD supports 
the delivery of additional assistance through FEMA's Homeland Security 
Grant program for deployment of Rapid DNA for disaster relief in our 
region. As mentioned above, response time is of utmost importance 
during disaster relief efforts, and the use of such technology can 
potentially identify victims of disaster sooner and return their 
remains to families in a timely manner.
    Thank you for your questions and the opportunity to comment.

                                 [all]
</pre></body></html>
